       Peace Corps
       Office of Inspector General




           Information Technology Governance




            Final Audit Report:
 Peace Corps Office of the Chief Information
Officer Budget Formulation and Management


                  January 2010
            Final Audit Report:
 Peace Corps Office of the Chief Information
Officer Budget Formulation and Management
                IG-10-05-A




         ____________________________________
                   Gerald P. Montoya
          Assistant Inspector General for Audit




                    January 2010
                              EXECUTIVE SUMMARY
 BACKGROUND
 The Clinger-Cohen Act of 1996 and the Office of Management and Budget (OMB)
 Circular A-130 required agencies to establish an information technology (IT)
 investment process and defined the responsibilities of the agency Chief Information
 Officers. Peace Corps established a governance process to ensure that its IT strategy
 aligns with business strategy and to manage its investments in IT. IT governance is
 essential to the Office of the Chief Information Officer (OCIO) budget formulation
 because it establishes OCIO priorities and influences resource allocation.

 The Chief Information Officer (CIO) is responsible for providing advice and other
 assistance to the Peace Corps Director to ensure that IT is acquired and information
 resources are managed in accordance with federal regulations. In FY 2008, the CIO
 managed an office of 58 employees and 27 contractors and a budget of approximately
 $8,470,500 in operations and maintenance funds and approximately $9,157,200 in
 centrally managed funds.

 We reviewed the Peace Corps IT investment and OCIO budget processes to determine
 whether Peace Corps complied with federal requirements and ensured the most
 efficient and effective use of agency resources.

 IT GOVERNANCE PROCESS
 Peace Corps did not establish an effective IT governance process as required by the
 Clinger-Cohen Act of 1996 and OMB Circular A-130. Specifically, Peace Corps did
 not:
      • Develop an Information Resource Management strategy.
      • Maintain a current IT roadmap to guide future decisions.
      • Clearly define the criteria for prioritizing and selecting IT investments.
      • Have a standard method for monitoring and evaluating all project costs and
         schedules.

 As a result Peace Corps:
    • Management lacked the necessary information to make informed IT planning
        and budget decisions and did not fully understand the IT investment process.
    • Offices made short-term decisions that did not ensure the most efficient and
        effective use of information resources. For example, the agency spent more
        than $99,000 in funds and labor costs that could have been avoided for two
        uncompleted IT projects.
    • Management did not adequately plan high priority initiatives and failed to
        allocate sufficient resources to fulfill federal IT requirements.
    • Project managers frequently allowed IT projects to exceed budget estimates and
        miss scheduled milestones.

 See finding A for more information.

Final Report: Office of the Chief Information Officer Budget Formulation and Management   i
 BUDGET MANAGEMENT
 The OCIO did not ensure its budget resources were sufficient and expended efficiently.
 Although controls were in place and operating effectively to ensure fund allocation and
 expenditures were necessary, justified, and properly approved, the OCIO
 inappropriately commingled its two fund accounts and relied heavily on additional
 agency funds to support routine business activities. The OCIO also did not adequately
 manage its contracts and oversee the agency’s IT personnel.

 Because of poor budget management, the OCIO:
     •   Risked that essential and required functions would not have adequate funding.
     •   Did not maintain adequate oversight to ensure that its workforce completed
         tasks timely and efficiently.
     •   Paid $35,000 in unnecessary contract services and failed to properly track an
         additional $149,000 in contract costs.
     •   Did not properly manage $97,000 in lapsed salary costs.
     •   Did not maintain oversight of all agency IT resources as required by the
         Clinger-Cohen Act of 1996.

 In addition, the Office of the Chief Financial Officer (OCFO) did not provide Peace
 Corps offices with adequate guidance concerning the request of additional agency
 funds and failed to monitor the use of the additional funds. As a result, OCFO did not
 have sufficient administrative control of funds to ensure the most efficient use of
 agency resources and could not make fully informed decisions when providing
 additional resources to offices.

 See findings B and C for more information.

 RECOMMENDATIONS
 Peace Corps Office of the Chief Information Officer made improvements during FYs
 2008 and 2009 by revising the investment review board process, reviewing its
 budgetary accounts, and reevaluating its contract mechanisms. However, the Peace
 Corps will continue to expend resources inefficiently until the agency establishes an
 overall information resource management strategy and IT plan. See the Agency
 Initiatives section for more information.

 Our report contains 23 recommendations, which, if implemented, should strengthen
 internal controls and correct the deficiencies in the Peace Corps OCIO budget
 formulation and execution processes. Among our recommendations, we address the
 need for an agency-wide information resource management strategy, criteria for
 investment review board decisions, a process that clearly defines responsibilities
 related to preparing and retaining project documentation, a consistent project
 evaluation method, and clearly defined and separated OCIO fund accounts.




Final Report: Office of the Chief Information Officer Budget Formulation and Management    ii
                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i

INTRODUCTION .............................................................................................................. 1

FINDING A. INFORMATION TECHNOLOGY PLANNING AND INVESTMENT
CONTROL .......................................................................................................................... 3
LONG-TERM IT PLANNING .............................................................................................................................. 4
IT ROADMAP ................................................................................................................................................... 7
PLANNING AND INVESTMENT CONTROL PROCESS ........................................................................................... 9
PROJECT MANAGEMENT................................................................................................................................ 20

FINDING B. OFFICE OF THE CHIEF INFORMATION OFFICER BUDGET
FORMULATION ............................................................................................................. 24
SEPARATION OF OCIO FUND ACCOUNTS ...................................................................................................... 25
REQUEST FOR AGENCY RESOURCES .............................................................................................................. 26

FINDING C. OFFICE OF THE CHIEF INFORMATION OFFICER BUDGET
MANAGEMENT .............................................................................................................. 29
CONTRACT MANAGEMENT ............................................................................................................................ 29
OCIO PERSONNEL......................................................................................................................................... 32
AGENCY IT PERSONNEL ................................................................................................................................ 33

AGENCY INITIATIVES ................................................................................................. 36

INTERNAL CONTROLS ................................................................................................ 37

QUESTIONED COSTS AND FUNDS PUT TO BETTER USE .................................... 39

LIST OF RECOMMENDATIONS .................................................................................. 40

APPENDIX A.: OBJECTIVES, SCOPE, AND METHODOLOGY

APPENDIX B: ACRONYMS AND GLOSSARY

APPENDIX C: CHIEF INFORMATION OFFICER RESPONSIBILITIES

APPENDIX D: MANAGEMENT'S RESPONSE

APPENDIX E: OIG COMMENTS

APPENDIX F: AUDIT COMPLETION AND OIG CONTACT
                                          INTRODUCTION

GENERAL                          The Office of Inspector General conducted an audit of the
                                 budget formulation and budget management of the OCIO
                                 January 28, 2009 - June 12, 2009. We reviewed the agency’s
                                 IT investment and OCIO budget processes from fiscal years
                                 (FYs) 2007, 2008, and 2009. We performed this audit in
                                 accordance with generally accepted government auditing
                                 standards.

BACKGROUND                       The Clinger-Cohen Act of 1996 (CCA) and the Office of
                                 Management and Budget (OMB) Circular A-130 required
                                 agencies to establish an information technology (IT)
                                 investment process and defined the responsibilities of agency
                                 CIOs. The purpose of the Peace Corps OCIO is to ensure
                                 prompt, efficient, and effective implementation of information
                                 policies; compliance with federal IT regulations; and
                                 management of IT resources for the Peace Corps. OCIO
                                 responsibilities include:

                                      •   Providing agency IT direction, standards, enterprise
                                          architecture (EA), infrastructure, and IT strategy. 1
                                      •   Developing agency approved technology solutions.
                                      •   Evaluating new technologies and researching products.
                                      •   Testing information technology.
                                      •   Providing technical oversight of IT projects.
                                      •   Providing technical guidance to agency offices.
                                      •   Coordinating with agency offices to ensure IT success.

                                 The OCIO uses its funds for the development and application
                                 of IT products, training, and security of Peace Corps domestic
                                 and international operations. The OCIO FY 2008 budget
                                 included operations and maintenance funds of approximately
                                 $8,470,500 and centrally managed funds of approximately
                                 $9,157,200. In addition, agency offices use their funds for IT
                                 projects.

                                 Peace Corps has attempted to implement a successful IT
                                 governance process since 2002 with mixed results. The IT
                                 governance process involves aligning IT strategy with business
                                 strategy, ensuring that IT projects stay on track to achieve their
                                 strategies and goals, and measuring IT performance. IT
                                 governance is an essential element of the OCIO budget

1
    See appendix C for a glossary of terms.


Final Report: Office of the Chief Information Officer Budget Formulation and Management           1
                             formulation because it establishes OCIO priorities and
                             influences resource allocation.

OBJECTIVES                   The overall objective of this audit was to determine whether
                             the OCIO, in conjunction with the OCFO, implemented
                             effective budget formulation and budget execution procedures
                             that resulted in the most efficient use of Peace Corps budgetary
                             resources. Appendix A provides a description of the audit
                             objectives, scope, and methodology.




Final Report: Office of the Chief Information Officer Budget Formulation and Management     2
FINDING A. INFORMATION TECHNOLOGY PLANNING AND
           INVESTMENT CONTROL

Peace Corps did not manage its information technology investments efficiently and
effectively in accordance with OMB Circular A-130. Although Peace Corps made
several attempts to define the IT investment process and continued to refine the
procedures, it had not developed a sustainable and mature solution. This occurred
because:
    •   The Peace Corps failed to develop adequate long-term IT planning necessary to
        guide investment decisions.
    •   The Peace Corps did not implement an adequate planning and investment control
        process to select, prioritize, control, and evaluate information technology.
    •   The OCIO did not clearly define and enforce its project management policies
        necessary to ensure all required information was obtained and maintained for the
        life of the IT investment.

As a result, Peace Corps expended time and resources on IT that was not cost effective,
failed to allocate sufficient resources to fulfill federal IT requirements, and did not
adequately plan high priority initiatives. Further, Peace Corps IT projects were
frequently over budget and schedule. Additionally, the agency inappropriately spent
more than $99,000 in funds and labor on two uncompleted projects. These costs could
have been avoided with proper planning and documentation.


IT INVESTMENT MANAGEMENT
Over the last seven years Peace Corps has attempted to implement a governance process
to manage its IT investments. However, the agency’s IT process was not strategically
focused and many of the processes were not followed. The following provides a timeline
of the major developments in the agency’s governance processes.

        2002 – Established the Office of IT Architecture, Standards, and Practices
               in the OCIO to manage the agency’s EA program.
        2003 – Developed draft EA documents for four IT systems.
        2003 – Implemented the Investment Review Board (IRB) consisting of senior
               management that reviewed IT investments and recommended to the
               Director which projects to fund.
        2003 – Chartered the EA Advisory Board (EAAB) to ensure projects aligned with
               the agency’s EA.
        2005 – Established a Project Management Office (PMO) to coordinate all IT
               project requests, ensure no duplications of effort exists among offices, and
               serve as the central repository for tracking all agency IT projects.
        2005 – Drafted change management policies designed to mitigate risk, reduce
               disruptions, and coordinate activities for all changes that impact any
               shared computing system or service.



Final Report: Office of the Chief Information Officer Budget Formulation and Management   3
        2006 – Updated the Systems Development Life Cycle (SDLC) Handbook that
               defines the required documents and decisions applicable for each project
               phase, from project concept to disposal.

The Government Accountability Office (GAO) defined five maturity stages of agency IT
investment management, ranging from merely investment awareness to a strategic focus
reliant on the EA to guide IT investments. See the chart below for a description of the
five stages. Higher maturity stages require long-term strategies to guide the agencies IT
investments and clearly defined processes for controlling and managing the IT projects
throughout the lifecycle.

The Peace Corps IT governance process provided a framework for the IT investment
process to achieve higher maturity stages. However, Peace Corps did not fully
implement the procedures. In addition, frequent staff turnover prevented the process
from fully developing into efficient and effective IT governance. As a result, Peace
Corps had not advanced into the higher maturity levels and remained focused on
individual projects instead of agency-wide strategy.




Source: GAO-04-394G, “Information Technology Investment Management: A Framework for Assessing
and Improving Process Maturity,” March 2004



LONG-TERM IT                   Peace Corps did not have an adequate Information
PLANNING                       Resource Management (IRM) Strategic Plan or detailed EA
                               roadmap to guide the agency IT initiatives. OMB Circular
                               A-130 requires Peace Corps to “establish and maintain
                               capital planning and investment control process that links
                               mission needs, information, and IT in an effective and
                               efficient manner.”



IRM STRATEGIC PLAN             Peace Corps’ did not have an IRM strategic plan that fulfilled
                               all the requirements of OMB Circular A-130. OMB requires


Final Report: Office of the Chief Information Officer Budget Formulation and Management         4
                               the use of IRM and IT planning documents to guide agency
                               IT investments. OMB Circular A-130 states:

                                       The IRM Strategic Plan is strategic in nature
                                       and addresses all information resources
                                       management of the agency. Agencies must
                                       develop and maintain the agency Information
                                       Resource Management Strategic Plan (IRM)
                                       as required by 44 U.S.C. 3506 (b) (2). IRM
                                       Strategic Plans should support the agency
                                       Strategic Plan required in OMB Circular A-11,
                                       provide a description of how information
                                       resources management activities help
                                       accomplish agency missions, and ensure that
                                       IRM decisions are integrated with
                                       organizational planning, budget, procurement,
                                       financial management, human resources
                                       management, and program decisions.

                               In the report GAO-04-59, “Governmentwide Strategic
                               Planning, Performance Measurement, and Investment
                               Management Can Be Further Improved,” GAO states,
                               “effective strategic is important to ensure that agencies’ IT
                               goals are aligned with the strategic goals of the agency.” The
                               IRM strategic plan should provide an agency-wide vision for
                               the long-term that offices use to help plan their future IT
                               investments and the IRB uses to guide decisions for
                               approving and prioritizing projects.

                               Agency-wide IRM Strategy. Peace Corps did not have a
                               defined process to involve all offices in the development of
                               the IRM strategic plan. The OCIO had its office-specific
                               annual budget strategic plan and an OCIO 3 year update
                               presentation from November 2008 which discussed agency IT
                               projects. However, these documents originated from the
                               OCIO office and did not identify how IRM helps accomplish
                               the agency mission and strategic goals of all Peace Corps
                               offices.

                               Although the OCIO is responsible for ensuring agency
                               compliance with information policies and information
                               resources management, it is the agency program officials that
                               are responsible and accountable for information resources
                               assigned to their programs. Title 44, U.S. Code 3506, states:

                                       “In consultation with the Chief Information Officer



Final Report: Office of the Chief Information Officer Budget Formulation and Management      5
                                       designated under paragraph and the agency Chief
                                       Financial Officer (or comparable official), each
                                       agency program official shall define program
                                       information needs and develop strategies, systems,
                                       and capabilities to meet those needs. With respect to
                                       general information resources management, each
                                       agency shall…develop and maintain a strategic
                                       information resources management plan that shall
                                       describe how information resources management
                                       activities help accomplish agency missions…”

                               It is important that each office contribute to the development
                               of a formal IRM strategic plan to incorporate all elements of
                               information resource management and how the agency uses
                               those resources to achieve its goals. The IRM strategic plan
                               must be an agency-wide document that guides IT planning
                               and decision making. For example, according to 5 Foreign
                               Affairs Manual 1020, “Information Technology (IT) Strategic
                               Plan,” the State Department’s strategic plan includes
                               department mission and strategic goals and an IT vision for
                               the next five years. Further, the State Department’s IT
                               governance board approves their strategic plan and uses it as
                               a guide to control the allocation of IT development funds.

                               Peace Corps can ensure management is aware and concurs
                               with the use of agency IRM resources to achieve its goals by
                               including management in the development and approval of
                               the IRM Strategic Plan.

                               Long-Term Vision. The OCIO strategic plan did not fulfill
                               the intent of an IRM strategic plan because it only covered
                               the next three years. In contrast, the Peace Corps’ agency-
                               wide strategic plan identified goals and initiatives for five
                               years. An IRM strategic plan is the long-term planning
                               document used to guide all elements of IRM.

                               The OIG questioned whether a three-year planning document
                               provides sufficient foresight necessary to develop a robust,
                               agency-wide strategy. Our review of 14 federal agencies’
                               IRM strategic plans found that 10 of the 14 agencies’ IRM
                               strategic plans covered five or more years. Therefore, OCIO
                               could better align the IT strategy to the agency’s strategic
                               plan and prepare for emerging technology and future
                               initiatives by expanding the IT strategic plan to five years.




Final Report: Office of the Chief Information Officer Budget Formulation and Management        6
                               IRM Elements. The IRM strategic plan did not include all
                               elements of IRM. Specifically, the plan provided by OCIO
                               did not describe how it supported the Paperwork Reduction
                               Act (covering information collection, privacy, and records
                               management), Freedom of Information Act, nor E-
                               government initiatives.

                               GAO recognized that many federal agencies did not include
                               these additional OCIO responsibilities in their IRM strategic
                               plans and noted this deficiency in GAO-04-49,
                               “Governmentwide Strategic Planning, Performance,
                               Measurement, and Investment Management Can Be Further
                               Improved.” GAO stated that:

                                       [IRM Strategic] plans generally include
                                       individual IT projects and initiatives, security,
                                       and enterprise architecture elements but do not
                                       often address other information functions—
                                       such as information collection, records
                                       management, and privacy—or the coordinated
                                       management of all information functions.

                               In the report GAO-04-823, “Federal Chief Information
                               Officers Responsibilities, Reporting Relationships, Tenure,
                               and Challenges,” GAO tracks these additional responsibilities
                               to the OCIO based on federal laws. See Appendix D for a list
                               of the specific CIO responsibilities and statutory requirements
                               identified by GAO. Therefore, the IRM strategic plan must
                               include all information resource management elements and
                               how the CIO ensures proper coordination of information
                               management and compliance with federal regulations.

IT ROADMAP                     Peace Corps did not have a working document that clearly
                               defined the current IT environment, its relationship to
                               business processes, and the desired future IT environment.

                               CCA requires agencies to “develop, maintain, and facilitate
                               the implementation of a sound and integrated information
                               technology architecture for the executive agency.” IT
                               architecture is “an integrated framework for evolving or
                               maintaining existing information technology and acquiring
                               new information technology to achieve the agency's strategic
                               goals and information resources management goals.”

                               According to OMB Circular A-130, the EA is a roadmap for
                               transitioning from the current IT environment to the target IT



Final Report: Office of the Chief Information Officer Budget Formulation and Management        7
                               environment. The EA must guide both strategic and
                               operational IRM planning. However, Peace Corps’ EA was
                               outdated. The last documented EA was still in draft form and
                               dated January 21, 2004. Not all the IT systems described
                               were still in place and new systems were not included.

                               In addition, Peace Corps did not develop an adequate plan for
                               a target EA environment. The Peace Corps developed EA
                               scenarios to describe how IT would support future processes.
                               However, the scenarios were not descriptive in how the
                               agency would achieve the future processes described in the
                               narratives. The EA documents did not provide a roadmap
                               that would help management identify IT needs and determine
                               the most feasible solutions.

CONCLUSION                     Without clearly defined IRM and IT strategies, Peace Corps
                               made short-term decisions that did not ensure the most
                               efficient and effective use of information resources. Further,
                               the IRB and Peace Corps offices could not make informed
                               decisions about IT planning and budgeting. To better ensure
                               information resources will help the agency achieve its
                               mission, the Peace Corps must develop an agency-wide IRM
                               strategy involving all offices and use it to establish an EA
                               roadmap. These documents will help guide the agency’s IT
                               decisions and offices’ IT budgets.


WE RECOMMEND:

1. That the Peace Corps Director, in conjunction with the Chief Information Officer,
   develop an Information Resource Management strategic plan that establishes the
   agency’s long-term information technology goals, describes how information
   technology supports all information resource management, and connects information
   technology initiatives to the Peace Corps mission.

2. That the Chief Information Officer update the enterprise architecture to reflect the
   current information technology environment.

3. That the Chief Information Officer develop an enterprise architecture roadmap that
   supports how the agency’s information technology initiatives will support the
   information resource management strategic plan.




Final Report: Office of the Chief Information Officer Budget Formulation and Management         8
PLANNING AND                   Peace Corps did not implement an adequate governance
INVESTMENT CONTROL             process to select, prioritize, control, and evaluate IT
PROCESS                        investments. Although OCIO developed an IRB charter, it
                               did not clearly define how the IRB would fulfill the
                               responsibilities required by CCA and OMB A-130. Further,
                               the IRB did not always follow its own written procedures.
                               As a result, some IRB members were unclear on the IRB’s
                               mission and questioned the fairness and effectiveness of the
                               IT investment process.


                               The CCA requires federal agencies to develop a capital
                               planning and investment control process. CCA requires that
                               the Peace Corps Director design and implement a “process
                               for maximizing the value and assessing and managing the
                               risks of the information technology acquisitions of the
                               executive agency.” The CCA described the necessary
                               processes of IT governance to include the selection of IT
                               investments, application of criteria when considering IT
                               investments, identification of investment measurements, and
                               communication of project results to management.

                               To comply with the CCA, Peace Corps established an IRB
                               consisting of management officials. The IRB charter
                               experienced several revisions over the last five years, but was
                               not formalized as agency policy in a Peace Corps Manual
                               section. It is essential for the agency to define the IT
                               investment process, including the IRB, in the Peace Corps
                               Manual to provide the necessary authority and clarification.
                               In addition, because of the constant staff turnover required by
                               the Peace Corps Act, defining the process in the Peace Corps
                               Manual will ensure continuous compliance with the CCA.

                               According to the IRB charter, the IRB responsibilities
                               included:

                                       •    Selecting IT projects and creating an IT portfolio.
                                       •    Aligning IT investments with budgets and the EA.
                                       •    Monitoring and controlling projects against their
                                            outcomes, costs, schedules, and benefits.
                                       •    Evaluating return on investment.
                                       •    Recommending and approving IT projects.




Final Report: Office of the Chief Information Officer Budget Formulation and Management       9
IRB RESPONSIBILITIES:          Peace Corps did not establish a consistent method for
                               selecting and prioritizing IT projects; because it did not
⇒SELECT                        clearly define what constituted an IT project, which IT
 ALIGN                         projects required presentation to the IRB, and what
 MONITOR                       documents were required to initiate an IT project. The CCA
 EVALUATE                      requires agencies to develop a process for selecting IT
                               investments integrated with the budget, financial, and
                               program management decisions of the agency. It further
                               requires agencies to develop minimum criteria when
                               investing in IT, including criteria related to the return on
                               investment and specific quantitative and qualitative analyses
                               for comparing and prioritizing alternative IT projects.
                               Establishing criteria for selecting IT investments helps ensure
                               that an agency compares investments consistently and that IT
                               decisions are transparent.

                               Peace Corps had a Systems Development Life Cycle (SDLC)
                               Handbook from 2006 that provided a standard methodology
                               for categorizing IT projects and listed the required
                               documentation. For example, the SDLC Handbook defined
                               the first stage in a project’s life cycle as the concept and
                               business case state and required the following documents:
                                   •   a project concept
                                   •   commercial purchase versus government developed
                                       evaluation
                                   •   EA compliance statement
                                   •   business case
                                   •   preliminary security risk
                                   •   timeline and cost estimates

                               According to the SDLC handbook, these documents were
                               required before IRB approval and release of funds for the
                               project. However, the IRB did not use the SDLC to
                               determine which documents and information were required
                               when selecting IT projects. As a result, management could
                               not evenly compare IT projects and make the most informed
                               decisions.

                               Classification. The Peace Corps SDLC project classification
                               spreadsheet assigns projects to one of three tiers: tier 1
                               projects cost less than $25,000 and do not require IRB
                               presentation; tiers 2 and 3 require additional documentation
                               and IRB approval. The different levels of projects and
                               documentation are important to ensure the agency fulfills all
                               IT and procurement requirements while avoiding over



Final Report: Office of the Chief Information Officer Budget Formulation and Management    10
                               burdensome and unnecessary procedures. OMB Capital
                               Programming Guide advises agencies to use a stratified
                               capital programming process involving more or less detail
                               and review based on the size or strategic importance of
                               proposed investments. The guide also recommends that
                               agencies have well documented thresholds clearly
                               disseminated and implemented across the organization.

                               However, Peace Corps did not consistently use the SDCL
                               project classification spreadsheet when developing IT
                               projects. Without these classification spreadsheets, project
                               managers could not determine which documents were
                               required. During our review of IT project documentation,
                               seven out of 15 selected projects did not include a
                               classification spreadsheet that identified the tier level. As a
                               result, we could not determine whether the projects initially
                               required IRB presentation and the required level of
                               documentation.

                               An April 2009 revision to the IRB charter required EAAB
                               approval for all projects and IRB approval for all projects that
                               are politically sensitive, high risk, impacting multiple offices,
                               or with total cost above $25,000. However, OCIO had not
                               defined whether the level of documentation for each project
                               would remain in accordance with the SDLC handbook.

                               Major IT Investments. Proper project classification is also
                               necessary to ensure compliance with federal regulations.
                               OMB requires agencies to prepare a list of all IT investments
                               called an IT portfolio (OMB exhibit 53) and a business case
                               for all major investments (OMB exhibit 300). OMB Circular
                               A-11, part 7, section 300 defines a major investment as:
                                       A system or an acquisition requiring special
                                       management attention because it: has significant
                                       importance to the mission or function of the
                                       agency, a component of the agency or another
                                       organization; is for financial management and
                                       obligates more than $500,000 annually; has
                                       significant program or policy implications; has
                                       high executive visibility; has high development,
                                       operating, or maintenance costs; is funded
                                       through other than direct appropriations; or is
                                       defined as major by the agency's capital
                                       planning and investment control process.




Final Report: Office of the Chief Information Officer Budget Formulation and Management          11
                               Peace Corps had prepared an exhibit 53 each year, but had
                               not updated or created an exhibit 300 since September 2003.
                               OCIO listed five systems in its FY 2009 OMB exhibit 53 that
                               were essential to the Peace Corps mission: Odyssey,
                               Volunteer Delivery System, Human Capital Management
                               project, infrastructure, and Enterprise Architecture Program.
                               The CIO stated that OMB did not require Peace Corps to
                               provide exhibit 300s for their projects, but could not provide
                               a waiver or other documentation supporting this decision.

                               An OCIO project manager also said that an updated exhibit
                               300 was not necessary because many of the Peace Corps IT
                               projects were fully developed and in use. However, based on
                               a review of 10 other federal agencies, all 10 had developed
                               exhibit 300s for IT projects in use. Furthermore, the exhibit
                               300 contains information related to projects that are in use,
                               including sections that list operations and maintenance costs
                               to compare with original estimates, performance indicators
                               that include actual results, and fields for updates to security
                               testing schedules for operational systems. Many of the Peace
                               Corps IT projects were also still undergoing enhancements
                               that should have been included in updates to an exhibit 300.
                               OMB requires additional sections for exhibit 300s of major
                               IT projects that are considered mixed life-cycle investment,
                               meaning “an investment having both development /
                               modernization / enhancement (DME) and steady state
                               components.”

                               The exhibit 300 is a useful tool designed to help agencies
                               plan, budget, acquire, and manage capital assets. OMB
                               states, “For IT, exhibit 300s are designed to be used as one-
                               stop documents for many of IT management issues such as
                               business cases for investments, IT security reporting, Clinger
                               Cohen Act implementation, E-Gov Act implementation,
                               Government Paperwork Elimination Act implementation,
                               agency’s modernization efforts, and overall project
                               (investment) management. It is important to understand, all
                               information necessary to complete an exhibit 300 already
                               exists as part of the agency's overall Information Resources
                               Management activities and within project specific
                               documentation.” The exhibit 300 is also intended to ensure
                               that each investment supports the agency’s mission statement,
                               long-term goals and objectives, and annual performance
                               plans.




Final Report: Office of the Chief Information Officer Budget Formulation and Management     12
                                    Therefore, the Peace Corps must determine which IT projects
                                    require an exhibit 300 and maintain current information on
                                    those projects to ensure compliance with OMB circular A-11
                                    and federal IT investment requirements.

                                    Presentation. After identifying the need for a potential IT
                                    project, the project’s sponsor 2 presents a request to the IRB.
                                    The IRB approves a project for recommendation to the
                                    Director, requests additional information, or rejects the
                                    project. However, the IRB did not require consistent
                                    information and did not have selection criteria to compare
                                    projects. GAO-04-49 states:
                                             To achieve desired results, it is important that
                                             agencies have a selection process that, for
                                             example, uses selection criteria to choose the
                                             IT investments that best support the
                                             organization’s mission and that prioritizes
                                             proposals.

                                    The project sponsor’s presented a variety of information to
                                    the IRB through demonstrations, slide presentations, or
                                    handouts. The presentations did not always include cost
                                    estimates, alternatives, and projected return on investment.
                                    Without standard information, the IRB could not make a fully
                                    informed decision on which projects merited approval.

                                    OCIO Projects. The IRB had limited control over the
                                    selection of OCIO IT projects. The OCIO maintained a
                                    separate list of OCIO IT projects presented to the IRB for
                                    informational purposes. As a result, the OCIO’s IT projects
                                    were not subject to the same IRB review and approval
                                    process as IT projects submitted by other offices within the
                                    agency. In addition, the OCIO’s list inappropriately included
                                    and prioritized several of its processes, such as security
                                    assessments and disaster recovery testing. Some of the OCIO
                                    IT projects presented to the IRB were part of the OCIO’s
                                    normal business operations and not IT projects.
                                    Furthermore, the list of OCIO IT projects was incomplete,
                                    sometimes skipping numbers in the priority listing and
                                    excluding some OCIO IT projects. For example, the OCIO
                                    contracted for an E-vault data management project in
                                    September 2007, but did not include the project in its FYs
                                    2007 and 2008 lists of project. The project’s purpose was to
                                    allow for more efficient data storage, search, and retrieval

2
    The project sponsor is the Peace Corps office requesting the IT project.


Final Report: Office of the Chief Information Officer Budget Formulation and Management           13
                                functionality. The project proposal scheduled work was
                                October 1 - 31, 2007, with an estimated cost of $101,000 for
                                the software and storage equipment and 100 labor hours.
                                Therefore, OCIO should have presented the project for
                                approval to the IRB because it exceeded the $25,000
                                threshold.

                                Although the project was never completed, OCIO has already
                                paid the contractor $46,368 for the project. As of May 2009,
                                OCIO had not installed the E-vault software and no longer
                                had plans to use it. Had the OCIO followed the required IT
                                investment process and conducted the necessary cost analysis,
                                it may have avoided spending $46,368.

                                Budget Integration. Peace Corps offices requested and
                                spent resources on IT projects without the required IRB
                                approval. CCA requires the integration of budget, financial,
                                and program management decisions for IT investments.
                                Before an office receives funds for IT projects, it should have
                                the proper approvals from the EAAB or IRB. This will
                                ensure budgetary resources align with the agency’s IT
                                strategy and target environment.

                                IRB approval was not required before some offices received
                                additional agency funds for IT projects. For example, in May
                                2009 OCFO received an additional $1,080,100 in agency
                                funds to acquire budget software without presenting the
                                information to the IRB and EAAB. Although Peace Corps
                                was revising the IRB process when the OCFO submitted this
                                request for agency resources (RAR), 3 OCFO still should
                                have communicated with senior management and OCIO staff
                                before requesting the funds.

                                During our review, we located RAR instructions that required
                                IT related requests be approved by IRB before submission to
                                the OCFO. This ensured the project was reasonable and
                                feasible before the agency assigned its resources. However,
                                neither OCFO nor OCIO budget personnel were aware of
                                these instructions.

IRB RESPONSIBILITIES:           Peace Corps did not maintain adequate documentation to
                                justify IT project prioritization. Prioritization helps ensure
 SELECT                         that the agency and OCIO properly align resources to meet
⇒ALIGN                          statutory requirements and achieve strategic goals.

3
 An RAR is the form used to request additional agency funds to pay for an activity or requirement not
sufficiently covered by an office’s allotted funds.


Final Report: Office of the Chief Information Officer Budget Formulation and Management                 14
 MONITOR                       Prioritization. The IRB was responsible for prioritizing
 EVALUATE                      agency projects. However, IRB members did not
                               fully understand the process because the agency did not have
                               a standard method for evaluating and comparing projects for
                               prioritization. As a result, the agency’s IT priority list was
                               not an effective tool for determining resource allocation. For
                               example, Peace Corps initiated the Magellan project in
                               January 2007, to provide an integrated system to better
                               connect domestic and international databases. This project
                               was an agency-wide initiative requiring several years, all
                               domestic and overseas operations, and an original estimate of
                               $9.4 million to complete. However, the IRB assigned the
                               Magellan project priority number 15 out of 21 in FY 2008.
                               Because of the size and impact of the Magellan project, the
                               IRB should have assigned it a higher priority.

                               The CIO prioritized OCIO projects. The OCIO project
                               prioritization lists from FYs 2007 through 2009 show that the
                               CIO did not properly prioritize federal requirements. For
                               example,

                                   •   In April 2007, CIO listed a project to comply with
                                       OMB Memorandum 06-16 as priority 12 out of 15.
                                       OMB required agencies to comply with this policy by
                                       August 2006.

                                   •   In April 2008, CIO listed a project to comply with
                                       OMB Memorandum 07-11 as priority 11 out of 13.
                                       OCIO originally scheduled this project to meet the
                                       OMB required completion date of February 1, 2008.
                                       Because of the delays and change in staff, OCIO had
                                       to revisit the requirements and updated the estimated
                                       completion date to July 2009.

                                   •   In April 2008, CIO listed the Federal Information
                                       Security Management Act required certification and
                                       accreditation process for one system as priority 12 out
                                       of 13.

                               As previously discussed, the Peace Corps had not fully
                               documented its IT strategic plan and target EA. Without a
                               clear IT strategy, the IRB and OCIO prioritization was
                               subjective and did not clearly align agency resources to its
                               goals. Further, because the IRB did not maintain detailed
                               meeting minutes to justify its decisions, the IRB’s
                               prioritization of IT investments was vulnerable to scrutiny.


Final Report: Office of the Chief Information Officer Budget Formulation and Management       15
IRB RESPONSIBILITIES:          Peace Corps did not adequately monitor projects throughout
                               their life cycle to ensure projects met budget and schedule
  SELECT                       targets.
 ALIGN
⇒MONITOR                       CCA required agencies to provide the means for senior
 EVALUATE                      management personnel to obtain timely information regarding
                               the progress of an investment in an information system. This
                               includes a system of milestones for measuring progress, on an
                               independently verifiable basis, in terms of cost, capability of
                               the system to meet specified requirements, timeliness, and
                               quality.

                               The OMB Circular A-130 requires agencies to:
                                   •   Institute performance measures and management
                                       processes that monitor actual performance compared
                                       to expected results. Agencies must use a performance
                                       based management system that provides timely
                                       information regarding the progress of an information
                                       technology investment. The system must also
                                       measure progress towards milestones in an
                                       independently verifiable basis, in terms of cost,
                                       capability of the investment to meet specified
                                       requirements, timeliness, and quality.
                                   •   Establish oversight mechanisms that require periodic
                                       review of information systems to determine how
                                       mission requirements might have changed, and
                                       whether the information system continues to fulfill
                                       ongoing and anticipated mission requirements. These
                                       mechanisms must also require information regarding
                                       the future levels of performance, interoperability, and
                                       maintenance necessary to ensure the information
                                       system meets mission requirements cost effectively.
                                   •   Ensure that major information systems proceed in a
                                       timely fashion towards agreed-upon milestones in an
                                       information system life cycle. Information systems
                                       must also continue to deliver intended benefits to the
                                       agency and customers, meet user requirements, and
                                       identify and offer security protections.

                               The IRB charter states, “the IRB reviews and prioritizes
                               existing ‘Development,’ ‘Enhancement,’ and ‘O&M’
                               [Operations and Maintenance] projects for cost, progress, and
                               alignment compliance as project progresses.” However, the
                               charter does not document what the IRB would review.
                               Project sponsors occasionally presented updates to the IRB on



Final Report: Office of the Chief Information Officer Budget Formulation and Management     16
                               project progress, but the information varied and rarely
                               included cost and schedule information.

                               Consolidating Project Information. The Peace Corps had
                               not established a process to ensure that the PMO received all
                               of the necessary cost and schedule information necessary to
                               track IT projects. The PMO was responsible for reporting
                               project status to the IRB and inform management of project
                               costs that exceeded budget and missed milestones. The
                               OCIO PMO used a three-color metric (ranging from green -
                               on target to red – significantly behind) for each project’s
                               budget, schedule, and scope in the IRB project lists.
                               However, the PMO determined the metrics based on
                               discussions with the project managers or a TRM instead of
                               verifying the information with cost and schedule
                               documentation. As a result, the OCIO and agency
                               management did not have visibility over all IT projects and
                               could not make informed decisions about resource allocation,
                               project continuation, or early termination.

                               Tracking Costs. Peace Corps had not developed a process to
                               accumulate all costs by project and compare the results to
                               original estimates. IT projects costs may include contract
                               costs, security and training, internal labor, and equipment.
                               During our review, we determined that projects did not
                               always include security and training in costs totals and did not
                               track the total number of internal labor hours. This issue was
                               further complicated by the lack of coordination between the
                               OCIO and project sponsors.

                               Tracking and reporting costs is necessary to comply with
                               federal regulations and ensure projects are not wasteful. For
                               example, the Federal Acquisition Streamlining Act of 1994
                               requires agency heads to achieve on average, 90% of cost and
                               schedule goals for major and non-major acquisition programs
                               of the agency. Further, OMB has issued policies on
                               implementing an earned value management system for IT
                               projects to ensure performance measurement baselines have
                               clear cost, schedule, and performance goals.

                               An agency-wide costing technique and tracking mechanism
                               would help ensure all offices involved with the IT project
                               report associated costs. This would allow agency
                               management to make more informed decisions about IT
                               projects, such as reallocating resources, and ensure




Final Report: Office of the Chief Information Officer Budget Formulation and Management     17
                               compliance with federal regulations. We discuss this issue
                               further in the Project Management paragraph.

                               Scheduling Work. The IRB did not have sufficient
                               information concerning project schedules and milestones to
                               provide adequate oversight of IT projects. In the PMO
                               reports to the IRB, projects were consistently listed as behind
                               schedule. For example, the PMO December 2008 report
                               listed seven out of 17 agency projects (41%) and four out of
                               eight OCIO projects (50%) as behind schedule.

                               However, we determined that the percent of projects behind
                               schedule exceeded these numbers, because the PMO
                               incorrectly reported some projects as on schedule. For
                               example, the PMO reported the property management system
                               on schedule in December 2008, even though it had an original
                               completion date of September 2008.

                               The IRB did not have specific information on work schedules
                               because projects were not clearly defined and divided by
                               phases. For example, the PMO December 2008 report
                               included the human capital management system with an
                               estimated completion date of July 1, 2007. This date
                               represented the original project completion date; the system
                               was completed but remained on the list because of continued
                               security testing and enhancements. Further, projects such as
                               Magellan, online collaboration, and the Volunteer Delivery
                               System were difficult to track against schedules because they
                               involved several projects; as the projects developed, OCIO
                               separated them into various smaller projects. In order for the
                               IRB to properly monitor projects, the OCIO must delineate
                               the specific IT projects and the different project phases.

                               OCIO implemented the work breakdown structure for some
                               of its IT projects. The work breakdown structure lists
                               specific tasks and target completion dates. This information
                               is essential for the IRB to properly monitor project schedules.
                               Some smaller projects may not require a work breakdown
                               structure, but need a process to track work in comparison to
                               the scheduled completion.

IRB RESPONSIBILITIES:          The Peace Corps did not review projects after their
                               implementation to ensure the agency achieved the desired
   SELECT                      return on investment and to document lessons learned. OMB
   ALIGN                       Circular A-130 states that as part of the evaluation component
   MONITOR                     of the capital planning process an agency must:



Final Report: Office of the Chief Information Officer Budget Formulation and Management     18
⇒EVALUATE                          •   Conduct post-implementation reviews of information
                                       systems and information resource management
                                       processes to validate estimated benefits and costs, and
                                       document effective management practices for broader
                                       use.
                                   •   Evaluate systems to ensure positive return on
                                       investment and decide whether continuation,
                                       modification, or termination of the systems is
                                       necessary to meet agency mission requirements.
                                   •   Document lessons learned from the post-
                                       implementation reviews. Redesign oversight
                                       mechanisms and performance levels to incorporate
                                       acquired knowledge.
                                   •   Re-assess an investment's business case, technical
                                       compliance, and compliance against the EA.
                                   •   Update the EA and IT capital planning processes as
                                       needed.

                               The SDLC handbook required lessons learned documentation
                               and post-implementation evaluation upon completion of an IT
                               project. However, none of the nine completed IT projects
                               reviewed contained a post implementation evaluation or
                               lessons learned documentation. In addition, project sponsors
                               did not always show cost totals or return on investment when
                               presenting the completed project to the IRB. This
                               information is necessary at the end of the project to determine
                               whether the project fulfilled its expectations, to reevaluate the
                               benefits, and to identify best practices.

CONCLUSION                     The Peace Corps IT governance process relied on the IRB to
                               select and prioritize IT projects, recommend IT projects to the
                               Director, monitor and control projects, evaluate return on
                               investment, and align IT investments with budgets and EA.
                               However, the IRB process for managing the agency’s IT
                               projects was not clearly defined and documented. As a result,
                               IRB decisions were not transparent and management did not
                               have assurance that the IT governance process promoted the
                               most efficient use of IT resources.


WE RECOMMEND:

4. That the Chief Information Officer develop a Peace Corps Manual section to
   describe the information technology governance process, including the various
   review boards and their functions.



Final Report: Office of the Chief Information Officer Budget Formulation and Management      19
5. That the Chief Information Officer update the System Development Life
   Cycle handbook to discuss the current information technology life cycle and
   required documentation.

6. That the Chief Information Officer review all information technology projects
   to determine whether any require an exhibit 300 and prepare the
   documentation when necessary.

7. That the Investment Resource Board develop and implement a standard list of
   required information and selection criteria for all information technology
   projects presented for approval. The Investment Resource Board must use this
   criteria to assist the Information Resource Board in prioritizing information
   technology projects.

8. That the Investment Resource Board maintain records to support all approval
   and prioritization decisions and ensure the information is readily available to
   agency management.

9. That the Investment Resource Board and Enterprise Architecture Advisory
   Board establish the process and criteria that will be used to monitor
   information technology projects during development and implementation.

10. That the Chief Information Officer develop a costing technique to track total
    information technology costs and establish guidelines for how the agency will
    implement the costing technique for information technology projects.

11. That the Investment Resource Board and Enterprise Architecture Advisory
    Board establish the process and criteria that will be used to evaluate
    information technology projects after implementation.



PROJECT MANAGEMENT The OCIO did not implement a process to ensure IT projects
                   progressed timely and all required documentation was
                   maintained throughout the project life-cycle. The SDLC
                   handbook lists the required milestones and associated
                   documentation necessary for IT projects from concept to
                   retirement. The SDLC established milestones for presenting
                   to the EAAB and IRB and the required documents such as
                   an IT project justification, costs comparisons, IT security
                   impact, and cost and schedule tracking sheets. This
                   documentation ensured management had the information to
                   make informed decisions and helped the agency comply
                   with OMB Circular A-130 and other federal regulations.
                   However, project managers and agency sponsors did not
                   follow the SDLC handbook because OCIO did not clearly
                   define responsibilities and enforce the standards.


Final Report: Office of the Chief Information Officer Budget Formulation and Management   20
ROLES AND                      The OCIO did not adequately communicate with project
RESPONSIBILITIES               sponsors to ensure projects progressed timely. Depending on
                               the size and impact of an IT project, numerous personnel
                               from different Peace Corps offices may be involved; such as
                               OCIO IT specialists, project sponsors, contracting OCIO
                               security team, and IT training staff. Although the SDLC
                               handbook had a list of deliverables required for IT projects by
                               phase, IT personnel were not aware of the handbook and did
                               not follow its guidelines. A clearly defined list of required
                               documents and document owners is essential to ensuring that
                               all personnel involved are aware of their responsibilities.

                               For agency projects, the OCIO Technical Relationship
                               Managers (TRM)’s role is to support the project sponsor by
                               guiding them through the IT governance process and helping
                               them understand and articulate their business requirements
                               and technology needs. TRMs also help the CIO PMO
                               maintain a list of projects and their status. However, several
                               project sponsors said they were not fully informed of the
                               requirements during development and who was responsible
                               for preparing and maintaining the required documents.

DOCUMENTATION                  During our review, we determined that the TRMs did not
CONSOLIDATION AND              consistently maintain documentation to support IT project
RETENTION                      cost analysis and estimates and often relied on the project
                               sponsor to maintain the cost documentation. As a result, the
                               IT project documentation was not readily available to support
                               requirements. Without an adequate central repository for IT
                               project documentation, it was difficult to verify that IT
                               managers followed Peace Corps policies and complied with
                               federal regulations.

                               Incomplete Documentation. The OCIO had a PMO to track
                               project development and provide a central repository for all
                               agency IT projects. The PMO established project folders on
                               the agency’s network to retain all of the documentation
                               required in the SDLC handbook. However, the TRMs did not
                               place documents in the folders and the PMO did not enforce
                               the practice. Therefore, project information did not flow to
                               the PMO.

                               During our review of 15 IT projects, we determined that the
                               PMO records were incomplete. See the table for a complete
                               description of which documents were not maintained in a
                               readily available location.




Final Report: Office of the Chief Information Officer Budget Formulation and Management    21
                                                Documentation Missing from
                                              the Project Management Folders
                                                              Projects without Required
                                   Name of Document
                                                                  Documentation*
                                Project initiation form                   10
                                Project classification sheet               7
                                Risk Assessment                           10
                                IT security assessment                    11
                                Scope documentation                        7
                                Work breakdown structure                   6
                                Procurement documents                      6
                                Test plan                                 10
                                Training plan                             12
                                Time tracking sheet                       12
                                Cost tracking sheet                       10
                                Weekly/monthly updates                     9
                               * Based on a judgmental sample of 15 IT projects.


                               Cost Benefit Analysis. One of the documents required by
                               the SDLC was the cost benefit analysis. This analysis is
                               especially important to ensure compliance with federal
                               regulations. OMB A-130 requires agencies to “prepare and
                               update a benefit-cost analysis for each information system
                               throughout its life cycle” and “support work processes that it
                               has simplified or otherwise redesigned to reduce costs,
                               improve effectiveness, and make maximum use of
                               commercial, off-the-shelf technology.”

                               Neither the TRM nor the project sponsor could provide the
                               cost documentation for three of the 10 agency IT projects we
                               reviewed. One of the projects was a planned property
                               management system. Because of frequent staff turnover,
                               several TRMs had assisted the project through initiation.
                               After 11 months of project design, a new TRM assumed
                               responsibility for the project, but she did not have the
                               required documentation to support the decision for OCIO
                               staff to develop the system. The new TRM had to re-evaluate
                               the project requirements and cost analysis. As a result, the
                               agency may have avoided spending approximately $52,763 in
                               labor costs had OCIO and the project sponsor developed and
                               maintained the necessary cost documentation to support the
                               decision to build the system.

CONCLUSION                     The OCIO did not implement an effective process to maintain
                               all IT project documentation throughout the project’s life-


Final Report: Office of the Chief Information Officer Budget Formulation and Management    22
                               cycle. Although the SDLC handbook listed the required
                               documents necessary for IT projects, Peace Corps did not
                               follow it. For agency projects, the TRM did not clearly
                               define responsibilities for creating and maintaining
                               documentation, causing confusion about which documents
                               the project sponsor or OCIO staff would create and store. In
                               addition, OCIO did not fully utilize the PMO for monitoring
                               and reporting all IT projects. As a result, IT project
                               documentation was not readily available and could not always
                               support projects costs and schedules. Without this
                               information management could not make well informed
                               decisions concerning project initiation, development,
                               continuation, and termination.


WE RECOMMEND:

12. That the Chief Information Officer issue guidance that describes the roles and
    responsibilities of the technical representatives and their relationship with project
    sponsors and managers. The guidance must clearly define who is responsible for
    each required document throughout the information technology project’s life cycle
    and who will retain the documentation.

13. That the Chief Information Officer develop and enforce standard operating
    procedures that will ensure the required information technology documentation is
    prepared timely and maintained in a readily available location for the life of the
    project.

14. That the Chief Information Officer design the layout within the information
    technology’s collaboration tool to assist users in determining which documentation is
    required and who is responsible for each step of the information technology process.




Final Report: Office of the Chief Information Officer Budget Formulation and Management     23
FINDING B. OFFICE OF THE CHIEF INFORMATION OFFICER
           BUDGET FORMULATION
Overall, Peace Corps had budgetary controls in place and operating effectively to ensure
that OCIO fund allocation and expenditures were necessary, justified, and properly
approved. However, OCIO commingled its operation and maintenance fund account
and IT centrally managed resources fund account and relied heavily on additional
agency funds. This occurred because:

    •   OCIO did not define and separate the OCIO fund accounts.
    •   OCFO did not provide Peace Corps offices with adequate guidance concerning
        the request of additional agency funds and failed to monitor the use of the
        additional funds.

As a result, OCIO did not practice good budget management and increased the risk that
essential functions would not have adequate funding. In addition, OCFO did not have
sufficient administrative control of funds to ensure the most efficient use of agency
resources and could not make fully informed decisions when providing additional
resources to offices.

ADMINISTRATIVE CONTROL OF FUNDS
Peace Corps budget controls over OCIO resources were in place and operating
effectively. Peace Corps policies establish key administrative controls over funds and
review processes. The Peace Corps Director allots all funds to the Chief Financial
Officer. The OCFO then creates sub-allotments at the highest possible organizational
level consistent with effective and efficient management. A separate allotment to each
allottee or sub-allottee is made for each fund account.

The Chief Financial Officer delegates authority to incur obligations and make
expenditures through the issuance of “operating budget advices.” These advices are
reflected in the agency’s operating plan and are based on operating budget levels
approved by the allottee. Through the allotment process, statutory responsibility is
placed on the allottee to ensure that obligations are not incurred and expenditures are not
made in excess of the allotment.

The Peace Corps' Office of Budget and Analysis, within the OCFO, carefully monitors
automated accounting reports and monthly obligations of administrative budget holders.
The OCFO has policies in place to provide effective controls and oversight to mitigate
the risk of over-obligation and misuse of agency funds.




Final Report: Office of the Chief Information Officer Budget Formulation and Management   24
SEPARATION OF OCIO              The OCIO did not adequately define and separate its two
FUND ACCOUNTS                   fund accounts.


                                The OCIO manages two fund accounts: (1) OCIO operations
                                and maintenance and (2) IT centrally managed resources.
                                OCIO used these funds for IT equipment, OCIO salaries,
                                OCIO travel expenses, and IT services. During interviews,
                                OCFO personnel explained that the OCIO operations and
                                maintenance account contains the costs that do not fluctuate
                                except for inflation. The operating budgets showed that the
                                OCIO operations and maintenance account funded salaries,
                                travel costs, equipment, IT security, training, and supplies;
                                while the IT centrally managed account funded disaster
                                recovery, telecommunications, advisory services, and agency
                                IT subscriptions.

                                The Peace Corps’ FY 2009 budget request sent to OMB
                                stated that the OCIO operations and maintenance account
                                was for the OCIO office to provide “leadership for and
                                management of the development and application of IT and
                                methodologies in support of the Peace Corps’ mission at
                                headquarters, U.S. regional offices, and overseas posts. It
                                serves as the primary source of IT advice and counsel to the
                                agency director.” It also stated that the IT centrally managed
                                funds included “the costs of telecommunications, data center
                                operations, mainframe and distributed computer
                                environments, overseas equipment, disaster recovery, and
                                enterprise information architecture.”

                                However, we determined that OCIO did not always adhere to
                                these definitions. For example, OCIO assigned $127,000 for
                                disaster recovery to the OCIO operations and maintenance
                                account. Further, OCIO paid for all travel and training costs
                                using the OCIO operations and maintenance account
                                regardless of whether the expense related to day-to-day
                                OCIO operations, overseas operations, or agency IT.

                                In FY 2008 and early FY 2009, OCIO and OCFO revised the
                                two accounts. However, Peace Corps still needs to clearly
                                define the two accounts and delineate costs accordingly. The
                                separation of funds is necessary for budget management and
                                to ensure OMB and Congress are adequately informed of the
                                Peace Corps budgets plan.




Final Report: Office of the Chief Information Officer Budget Formulation and Management    25
WE RECOMMEND:

15. That the Chief Financial Officer in conjunction with the Chief Information Officer
    clearly define the Office of the Chief Information Officer’s operations and
    maintenance account and the information technology centrally managed account and
    include the updated definition in the annual Peace Corps budget submission.

16. That the Chief Information Officer establish procedures to ensure the obligations are
    properly assigned to the Office of the Chief Information Officer’s operations and
    maintenance account and the information technology centrally managed account
    based on the account definitions.




REQUEST FOR AGENCY              Peace Corps had not established guidance on the use of
RESOURCES                       agency resources to cover unfunded requirements.


                                When an office requests additional funds, it submits a
                                Request for Agency Resources (RAR) through the OCFO to
                                the Director. The OCFO budget analysts work with the
                                offices submitting the request to determine whether the
                                request is justified and reasonable and makes
                                recommendations to the Director’s office. However, OCFO
                                did not document the RAR process, which allowed offices to
                                present varied levels of documents and support.

                                RAR Supporting Documentation. Without clear guidance
                                concerning RAR preparation and responsibilities, the OCFO
                                did not ensure requestors consistently supported and justified
                                their submission. In order to ensure consistent information
                                when evaluating how to allocate agency resources, it is
                                essential that offices understand which costs to include, what
                                to use as support, and how the IRB process relates to IT
                                requests.

                                We identified several inefficiencies and discrepancies in the
                                OCIO’s RARs that OCFO should have identified and
                                required more information for before processing the request.
                                In FYs 2007, 2008, and 2009; OCIO:
                                    •   Submitted numerous RARs for the same project.
                                        This was not efficient and did not ensure OCFO and
                                        the Director had complete visibility of the total
                                        projects costs and requirements.



Final Report: Office of the Chief Information Officer Budget Formulation and Management    26
                                    •   Did not always provide specific information
                                        regarding how requests fulfilled office and agency
                                        needs and aligned to the agency’s plan.
                                    •   Did not justify how the cost and labor hour estimates
                                        were calculated.
                                    •   Did not always include total costs associated with a
                                        request, such as future maintenance costs, security
                                        costs, and labor costs.
                                    •   Did not always provide an effective performance
                                        measurement to ensure the project funded by the
                                        RAR met goals and expectations.

                                Therefore, OCFO allowed the OCIO to receive additional
                                agency resources without fully justifying the request or
                                providing support to demonstrate that the funds were used
                                for the requested purpose. As a result, OCFO did not
                                maintain sufficient administrative control of funds to ensure
                                the most efficient use of agency resources and could not fully
                                informed decisions when providing additional resources to
                                offices.

                                OCIO Use of RARs. OCIO relied heavily on RARs to fund
                                essential business activities. We determined that more than
                                31% of the OCIO’s budget was funded by RARs over the
                                last two and half years. Based on a review of FY 2007,
                                2008, and 2009 OCIO RARs, we determined that more than
                                50% were requests for funds to fulfill federal mandates and
                                routine OCIO activities such as staff training, IT refresh, and
                                security testing. The Director approved the OCIO RARs for
                                the federal mandates and routine OCIO activities. However,
                                by not ensuring funding at the beginning of the fiscal year,
                                Peace Corps increased the risk that essential mission-related
                                activities will not be completed in a timely manner.

                                In 2008, the OCIO performed an analysis of the its base
                                budget, recognizing that RARs were covering budget
                                shortfalls, and that in order to protect its IT investment, core
                                IT services should be fully funded in baseline in order to
                                facilitate effective financial planning.




Final Report: Office of the Chief Information Officer Budget Formulation and Management        27
WE RECOMMEND:

17. That the Chief Financial Officer establish standard operating procedures concerning
    the preparation and submission of the requests for agency resources. Specifically, the
    guidance must describe which costs to include, establish what documentation is
    necessary to support the cost estimates, and require information review board
    approval for requests related to information technology.

18. That the Chief Information Officer, in conjunction with the Chief Financial Officer,
    review the Office of the Chief Information Officer’s requests for agency resources to
    determine whether any of the costs should be included in the operating budget to
    mitigate the risk that essential information technology activities are not funded in a
    timely manner.




Final Report: Office of the Chief Information Officer Budget Formulation and Management   28
FINDING C. OFFICE OF THE CHIEF INFORMATION OFFICER
           BUDGET MANAGEMENT
The OCIO did not adequately oversee contracts and manage IT personnel. This
occurred because the OCIO did not:

    •    Ensure the contract officer’s technical representatives were fulfilling their
         responsibilities.
    •    Fill vacant OCIO positions timely.
    •    Establish clear lines of communication with all agency IT specialists.

As a result, the OCIO could not ensure its workforce completed tasks timely and
efficiently and could not fulfill all requirements of the Clinger-Cohen Act. Peace Corps
paid $35,000 for unnecessary contract services and failed to properly track an additional
$149,000 in contract costs. In addition, Peace Corps could have better utilized $97,000
by reducing lapsed salary costs and could have saved additional time and resources by
properly aligning IT resources.

OCIO BUDGETED AMOUNTS
The OCIO budget consisted of costs for personnel (such as salaries, awards, and
benefits), travel, training, equipment, supplies, and IT service contracts. In FY 2008, the
OCIO contract and salary costs comprised approximately 99.5% of the budgeted
operations and maintenance funds ($8,430,600) and 80% of the budgeted centrally
managed fund ($7,330,680).

In FY 2008, OCIO had 56 employees and 33 contractors assigned to five offices:

    1.   operations and infrastructure
    2.   planning and training
    3.   IT security
    4.   application systems
    5.   IT architecture standards and practices

In addition, Peace Corps headquarters staff included 10 IT specialists in offices other than
the OCIO and overseas posts employed personal service contractors as IT specialists.



CONTRACT                        OCIO did not always track contract performance and
MANAGEMENT                      ensure that contractors completed work in accordance with
                                contract terms.


                                The Office of Acquisitions and Contract Management was
                                the contracting officer for OCIO contracts. OCIO personnel
                                served as the contracting officer’s technical representative


Final Report: Office of the Chief Information Officer Budget Formulation and Management   29
                                (COTR) to manage and measure contract performance and
                                provide technical direction. Within the OCIO, the operations
                                and infrastructure office oversaw the majority of the
                                contractors. The contractors’ primary tasks were to manage
                                IT equipment, provide service desk support, and test IT
                                security.

                                Based on a review of five contracts, we determined that
                                OCIO personnel did not always fulfill their COTR
                                responsibilities. Two of the five contracts we reviewed had
                                poorly defined deliverables, and OCIO did not adequately
                                track goods and services. Without retaining the invoice
                                support for specific contract deliverables, the OCIO could
                                not ensure it received the necessary services and that the
                                contractor fulfilled all contractual obligations.

                                The largest OCIO contract became difficult to manage,
                                because of numerous contract modifications that were not
                                properly tracked to invoices and deliverables. In August
                                2006, Peace Corps issued the original contract for IT services
                                including asset management, help desk support, and IT
                                security at an approximate cost of $4.8 million a year. By
                                November 2008, Peace Corps had issued 29 modifications
                                for an additional $3 million in goods and services. Contract
                                management became even more difficult because the COTR
                                left the agency in November 2008. By that time, the contract
                                already contained the following issues:

                                • Deliverables listed in the contract modifications were
                                  vague and could not be easily traced to actual goods or
                                  services. Twelve out of 56 contract line items listed as
                                  “catalog purchase” did not specify which product OCIO
                                  planned to purchase using these line items.

                                • Invoices did not specify the contract line item to which
                                  the goods or services applied. The vendor submitted
                                  invoices listing all costs on contract line item number 1,
                                  instead of assigning the purchases to one of the 56
                                  specific line item numbers. The contract required the
                                  contractor to provide deliverable information in
                                  attachments to the invoices; however, OCIO personnel
                                  could not provide this information.

                                • The COTR and OCIO administrative personnel could not
                                  provide information regarding which goods and services
                                  have been received and what was outstanding on the


Final Report: Office of the Chief Information Officer Budget Formulation and Management    30
                                         contract. We determined that four contract line items
                                         were over-expended by approximately $149,000.
                                         Although the contract was not over-obligated because
                                         other lines were under-expended or not yet billed, the
                                         OCIO could not efficiently determine which goods and
                                         services it received and which were outstanding.

                                    • Services appeared duplicate and inadequately justified.
                                      Although disaster recovery had been included in the
                                      contract’s original statement of work, it did not specify
                                      what costs the service included. In February 2007, OCIO
                                      modified the contract by adding $35,000 for disaster
                                      recovery testing.

                                         In addition, disaster recovery testing was included in a
                                         separate contractor’s statement of work. Without a
                                         sufficient documentation explaining the different
                                         responsibilities of the two contractors, we question
                                         whether the charges were necessary.

                                    • Peace Corps accepted and paid for a contractor’s proposal
                                      for an IT project involving software and installation
                                      services, but the contractor never completed the project.
                                      In September 2007, the contractors submitted a proposal
                                      to test and install E-vault data management software 4 by
                                      October 31, 2007. OCIO increased the contract by
                                      $46,368 based on the proposal and paid the contractor for
                                      these services in December 2007. Although OCIO
                                      received the E-vault software, as of May 2009, it was not
                                      installed and OCIO did not have plans to use it. As a
                                      result, the contractor did not fulfill the scope of work
                                      defined in its project proposal and the contract statement
                                      of work.

                                    To provide adequate contract management, COTRs must
                                    monitor contractor performance and require the contractor to
                                    provide the contract line item information on the invoices to
                                    facilitate tracking deliverables to the contract.




4
    We discuss this project in the finding A project presentation paragraph.


Final Report: Office of the Chief Information Officer Budget Formulation and Management             31
WE RECOMMEND:

19. That the Chief Acquisition Officer review the Office of the Chief Information
    Officer’s procedures for providing technical oversight and provide instruction for the
    its contracting officer’s technical representatives when managing large information
    technology contracts.

20. That the Chief Acquisition Officer request an audit of the August 2006 Office of
    Chief Information Officer contract for information technology services.

21. That the Chief Information Officer ensure all Office of the Chief Information Officer
    personnel assigned as contracting officer’s technical representatives are properly
    trained and are fulfilling the required responsibilities.




OCIO PERSONNEL                     OCIO did not fill vacancies timely, leaving essential
                                   functions understaffed and causing other positions to
                                   assume additional responsibilities.


                                   OCIO had 11 vacancies out of 56 positions (19.6%) in
                                   December 2007 and 11 vacancies out of 58 positions (19.0%)
                                   in December 2008. Two of the vacancies remained open
                                   over 300 days and an additional two positions (an emergency
                                   management specialist and a telecom specialist),
                                   approximately $173,100 in annual salary costs and benefits,
                                   were not filled in more than a year and a half. Although
                                   some delay in filling positions is unavoidable, offices can
                                   reduce the amount through good hiring and employee
                                   retention practices.

                                   The delay in filling vacancies creates a salary lapse that can
                                   fund other expenses. 5 OCIO salary lapse and vacancies
                                   indicate that OCIO inappropriately used funds budgeted for
                                   salaries to routinely cover budget shortfalls. In FY 2008,
                                   OCIO salary lapse totaled approximately $768,000. With the
                                   proper OCFO approval, OCIO reprogrammed these funds to
                                   cover budget shortfalls including travel costs associated with
                                   the Magellan and the Volunteer Information Database
                                   Application projects, staff training, and new project studies.

                                   Offices should only budget for the positions and salaries
                                   necessary to complete their mission. Offices must also

5
    The OCFO regulates the savings from salary lapse through routine budget review.


Final Report: Office of the Chief Information Officer Budget Formulation and Management        32
                                conduct the proper budget planning and allocate the
                                necessary resources to cover expected costs. To ensure the
                                OCIO is properly staffed and can accomplish its mission, it
                                must make a concerted effort to fill vacancies timely or
                                return the positions and associated salary costs to the OCFO
                                for reallocation.

                                By April 2009, OCIO had reduced the number of vacancies
                                to 9 out of 72 positions (12.5%) and began filling one of the
                                two vacancies open for more than a year. The emergency
                                management specialist position, vacant since September
                                2007, had not been filled as of June 2009. Therefore, Peace
                                Corps could put the $107,989 for this position to better use
                                by reallocating the costs.


WE RECOMMEND:

22. That the Chief Information Officer, in conjunction with the Director of Personnel
    Management, review the Office of the Chief Information Officer organizational
    structure and positions to determine the most efficient alignment. Based on the
    review identify whether vacancies require filled or should be realigned to other
    positions or offices.




AGENCY IT PERSONNEL             The OCIO did not have clear lines of communication with
                                all agency IT specialists.


                                In FY 2009, Peace Corps headquarters staff included 10 IT
                                specialists not assigned to OCIO. Three of the 10 served as a
                                liaison between OCIO and their office. These individuals
                                communicated regularly with OCIO. The remaining seven
                                IT specialists were in the OCFO financial systems office. In
                                addition, at overseas posts approximately 60 personal
                                services contractors served as IT specialists.

                                OCIO is required to have visibility over all IT resources,
                                including personnel. Title 40 U.S. Code 11315 requires the
                                CIO "annually, as part of the strategic planning and
                                performance evaluation process. . .

                                        (A) Assesses the requirements established for
                                        agency personnel regarding knowledge and skill


Final Report: Office of the Chief Information Officer Budget Formulation and Management     33
                                        in information resources management and the
                                        adequacy of those requirements for facilitating
                                        the achievement of the performance
                                        goals established for information resources
                                        management.

                                        (B) Assesses the extent to which the positions
                                        and personnel at the executive level of the
                                        agency and the positions and personnel at
                                        management level of the agency below the
                                        executive level meet those requirements.

                                        (C) Develops strategies and specific plans for
                                        hiring, training, and professional development
                                        to rectify any deficiency in meeting those
                                        requirements.”

                                The OCFO IT personnel provided technical support for the
                                Peace Corps financial management system. Although the
                                OCFO financial systems office communicated with the
                                OCIO as necessary, there was no process to ensure that the
                                IT specialists received the proper support and oversight of
                                the OCIO. As a result, OCIO did not have proper oversight
                                of all IT managers, timely information regarding all OCFO
                                IT expenses, and administrative control over staff training
                                and qualifications. Specifically:

                                • The director in charge of the OCFO financial systems
                                  office did not report to the OCIO nor have a performance
                                  element assessed by the OCIO. OMB memorandum 9-02
                                  reaffirmed and clarified the organizational, functional, and
                                  operational governance framework. To manage and
                                  optimize the effective use of IT in federal agencies, the
                                  memorandum stated that the agency CIO may establish
                                  and provide evaluations and appraisals in collaboration
                                  with the appropriate supervisors within the performance
                                  plans of IT and IT-related executives and senior
                                  managers.

                                • In finding A, the budget integration paragraph described
                                  how the OCFO financial systems office did not always
                                  inform OCIO of IT projects timely and was able to
                                  receive $959,300 in funding for an IT project before
                                  receiving approval from the IRB. By permitting offices
                                  to receive or spend IT related funds without following the
                                  necessary IT investment review process the agency risks



Final Report: Office of the Chief Information Officer Budget Formulation and Management    34
                                    spending funds on projects that may be unnecessary,
                                    under budgeted, or not feasible.

                                • OCFO financial systems office did not report its staff’s IT
                                  training and qualifications to the OCIO to ensure the
                                  OCIO tracked all agency IT knowledge and skills.

                                Without a requirement to report to OCIO, there is no
                                assurance that OCIO has complete visibility of all agencies
                                IT resources. The CIO must have visibility over all IT
                                resources, projects and personnel, to perform the functions
                                required by CCA and properly account for all information
                                resources management activities. One way to ensure OCIO
                                control over agency IT is to create an organizational structure
                                that aligns IT personnel along reporting chains that feed to
                                the OCIO.


WE RECOMMEND:

23. That the Peace Corps Director consider realigning all headquarters information
    technology personnel positions to the Chief Information Officer reporting chain or
    requiring the Chief Information Officer provide input for a performance element
    concerning information technology responsibilities in the annual performance plan of
    all managers with significant information technology responsibilities.




Final Report: Office of the Chief Information Officer Budget Formulation and Management     35
                                AGENCY INITIATIVES
 Peace Corps OCIO made several improvements during FYs 2008 and 2009 as it
 revised the investment review board process, reviewed its budgetary accounts, and
 reevaluated its contract mechanisms.

     •   In April and May 2009, the OCIO drafted revisions to the IRB and EAAB
         charters. The updated charters included additional details on the decision
         making process and defined which IT projects require EAAB and IRB review.
         The charter still did not fully describe costs, schedule tracking, or the
         evaluation process. To ensure compliance with CCA and OMB A-130, all
         elements of the IT governance process must be fully documented in Peace
         Corps policy, such as the Peace Corps Manual, and followed by all Peace Corps
         offices.

     •   In May 2009, OCIO began maintaining the IRB approvals electronically. If
         maintained in a readily available location, these records will help improve the
         IT governance’s transparency.

     •   OCIO is also developing a collaboration tool that will enable Peace Corps
         offices to communicate during IT planning and development and consolidate IT
         project documents. However, OCIO has not clearly defined the responsibilities
         for preparing documents. To ensure the appropriate documents are maintained
         in a readily available location, the collaboration tool must be designed so the
         users can easily identify what is required and who is responsible for each
         document. If well-designed and implemented across the agency, this
         collaboration tool will facilitate sharing of information and provide a useful
         repository of IT project information.

     •   In FY 2009, OCIO did not renew the full contract for IT asset management and
         support services and began terminating it. OCIO redistributed the IT services
         by issuing smaller contracts and increasing OCIO personnel levels. Although
         reducing the dollar amount and scope of each individual contract, OCIO issued
         more contracts by separating the services. Therefore, it is still important that
         OCIO managers clearly define contractor level work, track costs, and ensure
         performance.

 The recent OCIO initiatives combined with corrective actions taken in response to this
 report will help promote efficiency and ensure compliance with federal regulations.




Final Report: Office of the Chief Information Officer Budget Formulation and Management    36
                               INTERNAL CONTROLS
 The Government Accountability Office report GAO/AIMD-00-21.3.1, “Standards for
 Internal Control in the Federal Government,” established guidance for implementing
 internal controls in federal agencies. Internal controls provide reasonable assurance
 that the following objectives are being achieved:

         •    effectiveness and efficiency of operations,
         •    reliability of financial reporting, and
         •    compliance with applicable laws and regulations.

 The five internal control standards are control environment, risk assessment, control
 activities, information/communication, and monitoring. During our audit, we reviewed
 whether Peace Corps had adequate internal controls over OCIO budget formulation and
 management. In our report, we identified the internal control weaknesses related to
 three of the five standards; control environment, control activities, and information/
 communication.

 The OCFO manages the agency’s risk assessment program. OCIO complied with
 OCFO risk assessment program by submitting annual risk assessments and statements
 of assurance; we did not test the validity of the risk assessments. Monitoring includes
 audits and the agency’s responsiveness to our recommendations. There were no
 previous audit recommendations outstanding at the time of our audit and therefore, no
 internal control weakness related to monitoring.

 Control Environment. We determined that the OCIO did not have oversight of all IT
 personnel and therefore could not properly manage all the agency’s IT resources.
 Further, OCIO did not fill vacancies timely. According to the Government
 Accountability Office,

         Another factor affecting the environment is the agency’s organizational
         structure…. A good internal control environment requires that the
         agency’s organizational structure clearly define key areas of authority
         and responsibility and establish appropriate lines of reporting.… Good
         human capital policies and practices are another critical environmental
         factor. This includes establishing appropriate practices for hiring,
         orienting, training, evaluating, counseling, promoting, compensating, and
         disciplining personnel. It also includes providing a proper amount of
         supervision.

 Control Activities. OCIO did not have sufficient control activities to ensure
 compliance with federal regulations and Peace Corps policies. We determined that
 documentation was not always prepared and maintained to support key IT decisions.
 Further, OCIO COTRs did not adequately oversee contracts to ensure the agency
 received the contracted goods and services. Government Accountability Office states,


Final Report: Office of the Chief Information Officer Budget Formulation and Management    37
         Control activities are the policies, procedures, techniques, and
         mechanisms that enforce management’s directives, such as the process of
         adhering to requirements for budget development and execution. They
         help ensure that actions are taken to address risks. Control activities are
         an integral part of an entity’s planning, implementing, reviewing, and
         accountability for stewardship of government resources and achieving
         effective results.

 Information/communication. The PMO did not report accurate and complete project
 information to the investment review board. This information was necessary for
 management to make decisions on whether to recommend IT investments to the
 Director for funding. Government Accountability Office states,

         Information should be recorded and communicated to management and
         others within the entity who need it and in a form and within a time
         frame that enables them to carry out their internal control and other
         responsibilities.




Final Report: Office of the Chief Information Officer Budget Formulation and Management   38
                           QUESTIONED COSTS AND
                          FUNDS PUT TO BETTER USE
We identified questioned costs and funds to be put to better use during the course of the
audit. They are discussed in the accompanying audit report and enumerated below along
with the recommendation number in the report.


                                      Questioned Costs
  Recommendation
                                                  Description                              Amount
      number
        19                  Disaster Recovery Testing                                      $35,000


                                  Funds Put to Better Use
  Recommendation
                                                  Description                              Amount
      number
         7                  Purchase of E-vault Software                                   $46,368
        22                  Lapsed Salary Costs                                           $107,989
       Total                                                                              $154,357




Final Report: Office of the Chief Information Officer Budget Formulation and Management          39
                         LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the Peace Corps Director, in conjunction with the Chief Information Officer,
   develop an IRM strategic plan that identifies the agency’s long-term IT goals,
   describes how IT supports all Information Resource Management, and connects IT
   initiatives to the Peace Corps mission.

2. That the Chief Information Officer update the enterprise architecture to reflect the
   current IT environment.

3. That the Chief Information Officer develop an enterprise architecture roadmap that
   supports how the agency’s IT initiatives will support the IRM strategic plan.

4. That the Chief Information Officer develop a Peace Corps manual section to describe
   the information technology governance process, to include the various review boards
   and their functions.

5. That the Chief Information Officer update the system development life cycle
   handbook to discuss the current information technology life cycle and
   required documentation.

6. That the Chief Information Officer review all information technology projects
   to determine whether any require an exhibit 300 and prepare the
   documentation when necessary.

7. That the Investment Resource Board develop and implement a standard list of
   required information and selection criteria for all information technology
   projects presented for approval. Use the criteria to assist the Information
   Resource Board in prioritizing information technology projects.

8. That the Investment Resource Board maintain records to support all approval
   and prioritization decisions and ensure the information is readily available to
   agency management.

9. That the Investment Resource Board and Enterprise Architecture Advisory
   Board establish the process and criteria that will be used to monitor
   information technology projects during development and implementation.

10. That the Chief Information Officer develop a costing technique to track total
    information technology costs and establish guidelines for how the agency will
    implement the costing technique for information technology projects.




Final Report: Office of the Chief Information Officer Budget Formulation and Management   40
11. That the Investment Resource Board and Enterprise Architecture Advisory
    Board establish the process and criteria that will be used to evaluate
    information technology projects post implementation.

12. That the Chief Information Officer issue guidance that describes the roles and
    responsibilities of the technical representatives and their relationship with project
    sponsors and managers. The guidance must clearly define who is responsible for
    each required document throughout the information technology project’s life cycle
    and who will retain the documentation.

13. That the Chief Information Officer develop and enforce standard operating
    procedures that will ensure the required information technology documentation is
    prepared timely and maintained in a readily available location for the life of the
    project.

14. That the Chief Information Officer design the layout within the information
    technology’s collaboration tool to assist users in determining which
    documentation is required and who is responsible for each step of the
    information technology process.

15. That the Chief Financial Officer in conjunction with the Chief Information Officer
    clearly define the Office of the Chief Information Officer’s operations and
    maintenance account and the information technology centrally managed account and
    include the updated definition in the annual Peace Corps budget submission.

16. That the Chief Information Officer establish procedures to ensure the obligations are
    properly assigned to the Office of the Chief Information Officer’s operations and
    maintenance account and the information technology centrally managed account
    based on the account definitions.

17. That the Chief Financial Officer establish standard operating procedures concerning
    the preparation and submission of the requests for agency resources. Specifically, the
    guidance must describe which costs to include, establish what documentation is
    necessary to support the cost estimates, and require information review board
    approval for requests related to information technology.

18. That the Chief Information Officer, in conjunction with the Chief Financial Officer,
    review the Office of the Chief Information Officer’s recent requests for agency
    resources to determine whether any the costs should be included in the operating
    budget to mitigate the risk that essential information technology activities are not
    funded in a timely manner.

19. That the Chief Acquisition Officer review the Office of the Chief Information
    Officer’s procedures for providing technical oversight and provide instruction for the
    its contracting officer’s technical representatives when managing large information
    technology contracts.



Final Report: Office of the Chief Information Officer Budget Formulation and Management     41
20. That the Chief Acquisition Officer request an audit of the August 2006 Office of
    Chief Information Officer contract for information technology services.

21. That the Chief Information Officer ensure all Office of the Chief Information Officer
    personnel assigned as contracting officer’s technical representatives are properly
    trained and are fulfilling the required responsibilities.

22. That the Chief Information Officer, in conjunction with the Director of Personnel
    Management, review the Office of the Chief Information Officer organizational
    structure and positions to determine the most efficient alignment. Based on the
    review identify whether vacancies require filled or should be realigned to other
    positions or offices.

23. That the Peace Corps Director consider realigning all headquarters information
    technology personnel positions to the Chief Information Officer reporting chain or
    requiring the Chief Information Officer provide input for a performance element
    concerning information technology responsibilities in the annual performance plan of
    all managers with significant information technology responsibilities.




Final Report: Office of the Chief Information Officer Budget Formulation and Management   42
APPENDIX A

           OBJECTIVES, SCOPE, AND METHODOLOGY
The overall audit objective was to determine whether the OCIO, in conjunction with the
OCFO, implemented effective budget formulation and budget execution procedures that
resulted in the most economic and efficient use of Peace Corps budgetary resources.
Additionally, we reviewed internal controls as they relate to budget formulation and
budget management.

We based our audit conclusions on information from the following three primary sources:
document and data analysis, interviews, and direct observations. We interviewed all
OCIO project managers, OCIO administrative personnel, and OCFO budget personnel.
We did not use computer-processed data during this audit. We reviewed the IT
investment, budget formulation, and budget management processes. The IT governance
process and Peace Corps administrative control of funds provide internal control over the
budget process. We reviewed whether these processes were in place and operating
effectively and noted any weaknesses in this report.

We reviewed FY 2007, 2008, and 2009 funding documents including OCIO operating
budgets, RARs, reprogramming actions, and budget of funds used reports. We
judgmentally selected contracts and invoices to review for accuracy and completeness.
In addition, we analyzed the OCIO position descriptions and salary expenses to
determine whether OCIO properly managed human resources. We also reviewed a
judgmental selection of 15 IT projects for documentation to support cost estimates, cost
and schedule tracking, and benefit analysis.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
APPENDIX B

                        ACRONYMS AND GLOSSARY

ACRONYMS

 CCA                                                                   Clinger Cohen Act
 CIO                                                            Chief Information Officer
 COTR                                      Contracting Officer’s Technical Representative
 EA                                                                Enterprise Architecture
 EAAB                                            Enterprise Architecture Advisory Board
 GAO                                                   Government Accountability Office
 IT                                                               Information Technology
 IRB                                                            Investment Review Board
 IRM                                                  Information Resource Management
 OCFO                                                Office of the Chief Financial Officer
 OCIO                                             Office of the Chief Information Officer
 OMB                                                   Office of Management and Budget
 PMO                                                         Program Management Office
 SDLC                                                   Systems Development Life Cycle
 TRM                                                    Technical Relationship Managers


GLOSSARY

Clinger-Cohen Act of 1996. Federal law that establishing a comprehensive approach for
executive agencies to improve the acquisition and management of their information
resources, by focusing information resource planning to support their strategic missions;
implementing a capital planning and investment control process that links to budget
formulation and execution; and rethinking and restructuring the way they do their work
before investing in information systems.

Enterprise Architecture. The explicit description and documentation of the current and
desired relationships among business and management processes and information
technology. It describes the current architecture (as-is) and the target architecture (to be)
along with the standards and systems life cycle information to optimize and maintain the
environment which the agency wishes to create and maintain through its IT portfolio.

Information Technology. Any equipment or interconnected system or subsystem of
equipment, that is used in the automatic acquisition, storage, manipulation, management,
movement, control, display, switching, interchange, transmission, or reception of data or
information by an executive agency. This includes computers, ancillary equipment,
software, firmware and similar procedures, services (including support services), and
related resources.
APPENDIX B

Information Resource Management. The process of managing information resources
to accomplish agency missions. The term encompasses both information itself and the
related resources, such as personnel, equipment, funds, and information technology.

Information Technology Investment Portfolio. A list of major IT projects and total
costs covering the entire risk-adjusted life cycle of each system and including all
budgetary resources. Federal agencies must report their portfolio and any updates to
OMB in compliance with the CCA.

Project. A temporary endeavor undertaken to create a unique product, service, or result.
An IT project as one that, “involves the delivery of an information technology product,
service, or system.” The OCIO processes were part of the normal business operations
and not IT projects.

Major Information Technology Investment. A system or acquisition requiring special
management attention because of its importance to the mission or function of the agency,
a component of the agency or another organization; is for financial management and
obligates more than $500,000 annually; has significant program or policy implications;
has high executive visibility; has high development, operating, or maintenance costs; is
funded through other than direct appropriations; or is defined as major by the agency’s
capital planning and investment control process.

Systems Development Life Cycle. The phases through which an information system
passes, typically characterized as initiation, development, operation, and termination. It
provides a common understanding between project managers and agency sponsors in
terms of expected tasks and accomplishments, deliverables, and requirements from one
life cycle phase to the next.
APPENDIX C

      CHIEF INFORMATION OFFICER RESPONSIBILITIES

In its report, GAO-04-823, GAO identified the following 13 major areas of Chief
information Officer responsibilities as either statutory requirements or critical to effective
information and technology management.

•   IT/IRM strategic planning. CIOs are responsible for strategic planning for all
    information and information technology management functions—thus, the term IRM
    strategic planning [44 U.S.C. 3506(b)(2)].

•   IT capital planning and investment management. CIOs are responsible for IT
    capital planning and investment management [44 U.S.C. 3506(h) and 40 U.S.C.
    11312 & 11313].

•   Information security. CIOs are responsible for ensuring compliance with the
    requirement to protect information and systems [44 U.S.C. 3506(g) and 3544(a)(3)].

•   IT/IRM workforce planning. CIOs have responsibilities for helping the agency
    meet its IT/IRM workforce or human capital needs [44 U.S.C. 3506(b) and 40 U.S.C.
    11315(c)].

•   Information collection/paperwork reduction. CIOs are responsible for the review
    of agency information collection proposals to maximize the utility and minimize
    public “paperwork” burdens [44 U.S.C. 3506(c)].

•   Information dissemination. CIOs are responsible for ensuring that the agency’s
    information dissemination activities meet policy goals such as timely and equitable
    public access to information [44 U.S.C. 3506(d)].

•   Records management. CIOs are responsible for ensuring that the agency
    implements and enforces records management policies and procedures under the
    Federal Records Act [44 U.S.C. 3506(f)].

•   Privacy. CIOs are responsible for compliance with the Privacy Act and related laws
    [44 U.S.C. 3506(g)].

•   Statistical policy and coordination. CIOs are responsible for the agency’s statistical
    policy and coordination functions, including ensuring the relevance, accuracy, and
    timeliness of information collected or created for statistical purposes [44 U.S.C.
    3506(e)].

•   Information disclosure. CIOs are responsible for information access under the
    Freedom of Information Act [44 U.S.C. 3506(g)].
APPENDIX C

•   Enterprise architecture. Federal laws and guidance direct agencies to develop and
    maintain enterprise architectures as blueprints to define the agency mission, and the
    information and IT needed to perform that mission.

•   Systems acquisition, development, and integration. We have found that a critical
    element of successful IT management is effective control of systems acquisition,
    development and integration [44 U.S.C. 3506(h)(5) and 40 U.S.C. 11312].

•   E-government initiatives. Various laws and guidance direct agencies to undertake
    initiatives to use IT to improve government services to the public and internal
    operations [44 U.S.C. 3506(h)(3) and the E-Government Act of 2002]
APPENDIX D

                    MANAGEMENT’S RESPONSE TO
                     THE PRELIMINARY REPORT


Management provided consolidated comments from the chief information officer, chief
acquisition officer, and chief financial officer on December 16, 2009. The comments did
not provide the response from the Peace Corps Director for recommendations 1 and 23.
Responses to recommendations 1 and 23 were subsequently provided on January 8, 2010.
We inserted the January 8, 2010 response into the December 16, 2009 response.
DATE:           December 16, 2009

TO:             Kathy Buller, Inspector General

FROM:           Chris Sarandos, Acting Chief Information Officer

CC:             Stacey Rhodes, Chief of Staff
                Kathy Rulon, Acting Senior Advisor to the Chief of Staff
                Thomas Bellamy, Acting Chief Financial Officer
                Carey Fountain, Chief Acquisition Officer
                Nicola Cullen, Policy & Program Analyst

SUBJECT:        Office of the Chief Information Officer’s Response to the OIG Preliminary Report on the
                Audit of Peace Corps Office of the Chief Information Officer Budget Formulation and
                Management



The following responses reflect the consensus of the Office of the Chief Information Officer.


1.    That the Peace Corps Director, in conjunction with the Chief Information Officer, develop an IRM
      strategic plan that identifies the agency’s long-term IT goals, describes how IT supports all
      Information Resource Management, and connects IT initiatives to the Peace Corps mission.
      Response:
      Concur – the Enterprise Architecture (EA) team will prepare a preliminary IRM strategic plan based on the
      existing OCIO strategic plan and submit this to the CIO and subsequently to the Director for review and
      approval.

      Revised response provided on January 8, 2010:
      Response: Concur – The Director’s Office has tasked the Acting CIO to draft a preliminary
      Information Resource Management plan based on the existing needs of the agency and the plans for
      growth. This includes automating the Volunteer Delivery System and establishing an Electronic
      Health Record system. Once the Chief Information Officer is appointed, the Chief of Staff will charge
      him/her to conduct a review of the preliminary plan to ensure that the agency’s IT priorities are
      planned and budgeted for in the out years,



2.    That the Chief Information Officer update the enterprise architecture to reflect the current IT
      environment.
      Response:
      Concur – the EA team is currently working on this initiative, and will continue to do so, particularly as
      the Volunteer Delivery System (VDS) implementation moves forward. This effort is currently
      constrained by a lack of resources.
3.   That the Chief Information Officer develop an enterprise architecture roadmap that supports how the
     agency’s IT initiatives will support the IRM strategic plan.
     Response:
     Concur – the EA team will develop this in conjunction with the IRM as noted in the response to
     recommendation 1 above.


4.   That the Chief Information Officer develop a Peace Corps manual section to describe the information
     technology governance process, to include the various review boards and their functions.
     Response:
     Non-Concur – the governance process is an internal OCIO process, but it is not necessary for it to
     become a manual section.


5.   That the Chief Information Officer update the system development life cycle handbook to discuss the
     current information technology life cycle and required documentation.
     Response:
     Concur – this update has already begun, and as in item 2, it is currently constrained by a lack of
     resources.


6.   That the Chief Information Officer review all information technology projects to determine whether
     any require an exhibit 300 and prepare the documentation when necessary.
     Response:
     Concur – at this time, the OCIO believes that the only current project that requires an exhibit 300 is
     the VDS and the exhibit 300 and associated documentation will be developed as the project
     progresses.

7.   That the Investment Resource Board develop and implement a standard list of required information
     and selection criteria for all information technology projects presented for approval. Use the criteria to
     assist the Information Resource Board in prioritizing information technology projects.
     Response:
     Concur – the OCIO concurs with the premise of this recommendation that there should be selection
     criteria developed. However, it is not the responsibility of the OCIO to develop the criteria, but rather
     it should be determined by the senior management of the Agency.


8.   That the Investment Resource Board maintain records to support all approval and prioritization
     decisions and ensure the information is readily available to agency management.
     Response:
     Concur – the EA team has already implemented a better record keeping process and will continue to
     refine and improve the process as new employees are added to the team.

                                                                                                            -2-
9.   That the Investment Resource Board and Enterprise Architecture Advisory Board establish the
     process and criteria that will be used to monitor information technology projects during development
     and implementation.
     Response:
     Concur – significant progress will be made as new Project Management Office (PMO) staff is hired.
     OCIO also has submitted an RAR to address this issue, and is waiting funding for this initiative.


10. That the Chief Information Officer develop a costing technique to track total information technology
    costs and establish guidelines for how the agency will implement the costing technique for information
    technology projects.
     Response:
     Concur – with this recommendation to the extent that a TCO evaluation is done at the beginning of
     the project. However, there are no chargeback mechanisms in place (fee for service) to allow for
     ongoing project cost allocation.


11. That the Investment Resource Board and Enterprise Architecture Advisory Board establish the
    process and criteria that will be used to evaluate information technology projects post implementation.
     Response:
     Concur – the process and criteria will be developed in conjunction with the new PMO personnel
     coming on board within the OCIO.


12. That the Chief Information Officer issue guidance that describes the roles and responsibilities of the
    technical representatives and their relationship with project sponsors and managers. The guidance
    must clearly define who is responsible for each required document throughout the information
    technology project’s life cycle and who will retain the documentation.
     Response:
     Concur – the current management team of the OCIO, together with the EA team, has a plan to
     address this recommendation.


13. That the Chief Information Officer develop and enforce standard operating procedures that will
    ensure the required information technology documentation is prepared timely and maintained in a
    readily available location for the life of the project.
     Response:
     Concur – significant progress will be made as new Project Management Office (PMO) staff is hired
     and when the solution to recommendation 12 is implemented. In the meantime, the existing EA staff
     will work to ensure better compliance with project documentation standards enforcement.


14. That the Chief Information Officer design the layout within the information technology’s
    collaboration tool to assist users in determining which documentation is required and who is
    responsible for each step of the information technology process.


                                                                                                         -3-
     Response:
     Non-Concur – OCIO provides templates and guidance for project documentation. However, given
     the current PMO infrastructure, there are insufficient resources to address this recommendation as
     outlined by the recommendation.


15. That the Chief Financial Officer in conjunction with the Chief Information Officer clearly define the
    Office of the Chief Information Officer’s operations and maintenance account and the information
    technology centrally managed account and include the updated definition in the annual Peace Corps
    budget submission.
     Response:
     Concur – the OCFO agrees that clarification and definition on the use of the OCIO’s operations and
     maintenance account and the information technology (IT) centrally managed account should be
     documented and proposes to issue coordinated guidance. There does not seem, however, to be any
     need for Senior Agency Management level conversations other than what would normally be required
     in order to coordinate and issue the additional guidance.


16. That the Chief Information Officer establish procedures to ensure the obligations are properly
    assigned to the Office of the Chief Information Officer’s operations and maintenance account and the
    information technology centrally managed account based on the account definitions.
     Response:
     Concur – this has already begun in conjunction with the FY2010 budget process and will see full
     implementation as the new CAO is brought on board.


17. That the Chief Financial Officer establish standard operating procedures concerning the preparation
    and submission of the requests for agency resources. Specifically, the guidance must describe which
    costs to include, establish what documentation is necessary to support the cost estimates, and require
    information review board approval for requests related to information technology.
     Response:
     Concur – the CIO will work with the CFO to develop standard operating procedures concerning the
     preparation and submission of the requests for agency resources. While general guidance on Requests
     for Agency Resources (RAR) is contained in CFO Bulletin Number 06-03, Subject: Reengineering of
     Peace Corps’ Integrated Planning and Budget System (IPBS), dated January 6, 2006, under the
     Requests for Agency Resources (RAR) bullet and the Reprogramming Defined and Thresholds
     Revised bullet, the OCFO agrees that this guidance could be expanded to include specific treatment of
     the IT centrally managed account in order to not “commingle” funds and that coordinated, clarifying
     guidance should include any other issues that would impact not only the OCIO but also other
     Departments.


18. That the Chief Information Officer, in conjunction with the Chief Financial Officer, review the Office
    of the Chief Information Officer’s recent requests for agency resources to determine whether any the
    costs should be included in the operating budget to mitigate the risk that essential information
    technology activities are not funded in a timely manner.


                                                                                                          -4-
     Response:
     Concur – the response to finding 15 applies to this recommendation. The OCFO agrees that a joint
     review with the CIO on RARs should be conducted in accordance with the Director’s resource
     priorities. The OCFO further believes that the RARs of the other departments should be subjected to
     further review in conjunction with the expected receipt of additional funding in the near future.


19. That the Chief Acquisition Officer review the Office of the Chief Information Officer’s procedures
    for providing technical oversight and provide instruction for its contracting officer’s technical
    representatives when managing large information technology contracts.
     Response:
     Partially Concur – OACM currently provides instructions to Contracting Officer Technical
     Representatives (COTR) regarding general contract oversight responsibilities in it’s delegation of
     authority letters. However, staff turnover, insufficient training and the lack of clearly defined contract
     surveillance plans contribute to contract oversight falling short of what’s needed. To address the root
     cause of this problem, OACM has developed and is in the process of implementing an agency level
     COTR certification policy and a Contract Surveillance Review Program. The certification policy will
     establish minimum training standards for COTRs, and through periodic reviews, the Surveillance
     Review Program will help ensure contract surveillance plans are developed and contractor
     performance is being tracked in accordance with the plan. At this time, OACM does not have
     sufficient resources to fully implement these two initiatives. A request for agency resources has been
     submitted and approval is pending.


20. That the Chief Acquisition Officer request an audit of the August 2006 Office of Chief Information
    Officer contract for information technology services.
     Response:
     Non-Concur – The SEAT Contract issued in August 2006 is a Firm Fixed Price Commercial Contract
     and is not subject to contract audit requirements. OACM has no knowledge of any improprieties
     associated with the contract and therefore has no basis for requesting an audit of this type. However, if
     OIG believes that some other audit of a specialized nature is appropriate, the background and basis for
     the audit should be provided or the audit should be performed by OIG. It should also be noted that
     OCIO did reconcile invoices to products delivered under the SEAT catalog to help develop the
     agency’s negotiating position to settle the partial contract termination (still in process) issued in early
     2008.


21. That the Chief Information Officer ensure all Office of the Chief Information Officer personnel
    assigned as contracting officer’s technical representatives are properly trained and are fulfilling the
    required responsibilities.
     Response:
     Concur – the OCIO has begun the appropriate training process, and will complete it with staff once
     the guidelines currently under development in the Office of the Chief Acquisition Officer are
     published and funding is provided.




                                                                                                              -5-
22. That the Chief Information Officer, in conjunction with the Director of Personnel Management,
    review the Office of the Chief Information Officer organizational structure and positions to determine
    the most efficient alignment. Based on the review identify whether vacancies require filled or should be
    realigned to other positions or offices.
     Response:
     Non-Concur – the findings of the IG are consistent with the practices in all areas of the Agency and
     are heartily endorsed by the OCFO.


23. That the Peace Corps Director consider realigning all headquarters information technology personnel
    positions to the Chief Information Officer reporting chain or requiring the Chief Information Officer
    provide input for a performance element concerning information technology responsibilities in the
    annual performance plan of all managers with significant information technology responsibilities.
     Response:
     Concur – however, the decision will need to be deferred to the Director. While any realignment of all
     Headquarters IT personnel to the CIO reporting chain would ultimately be the Director’s decision, it should
     be realized that the successful certification and accreditation of the Odyssey financial management system
     and, further, achieving the three Unqualified (clean) audit opinions for FY 2007 thru FY 2009 were
     accomplished with the CFO Financial Services IT personnel under the focused, direct control of the CFO.
     The efforts of these personnel could far more easily be diverted to alternative system requirements if under
     the CIO’s more broad systems umbrella. After the successful required recertification and accreditation of
     Odyssey is achieved later this fiscal year, this could be given further consideration if desired.

     Revised response provided on January 8, 2010:
     Concur – The Chief of Staff or the Deputy Director will review IT personnel and their reporting chain
     to determine the appropriateness of the current structure and consider realignments if appropriate.
     Historically, there have been significant advantages to decentralizing IT support in selected offices.
     For example, the Agency has been successful in obtaining certification and accreditation of the
     Odyssey financial management system and three unqualified (clean) audit opinions for FY 2007 thru
     FY 2009. These were accomplished with IT personnel under the focused, direct control of the CFO.




                                                                                                               -6-
APPENDIX E

                               OIG COMMENTS

Of the 23 recommendations made in our report, management fully concurred with 18
recommendations, partially concurred with one recommendations, and nonconcurred with
four recommendations.

Overall, management comments were not responsive. After receiving an incomplete
response, we explained the need for supporting documentation and completion dates for
corrective actions in an email to the chief information officer. We received the finalized
response from management more than 10 weeks beyond the usually six-week response
period. However, management still did not provide us with evidence supporting actions it
had taken to correct the identified weaknesses. As a result, we were unable to close any
the recommendations. The 23 recommendations remain open pending confirmation from
the chief compliance officer that the following has been received:

   •   For recommendations 1, 2, and 3: a copy of the IRM strategic plan, enterprise
       architecture, and enterprise architecture roadmap.

       Peace Corps paid a contractor to develop enterprise architecture documentation in
       January 2004. However, Peace Corps did not finalize the documents and
       neglected to update the information as it acquired and implemented new IT
       systems. Now the documents are no longer relevant and do not provide the agency
       with the information required to make informed IT planning and budgeting
       decisions. According to OMB Circular A-130:

              “Agencies must establish and maintain a capital planning and
              investment control process that links mission needs, information,
              and information technology in an effective and efficient manner.
              The process will guide both strategic and operational IRM, IT
              planning, and the Enterprise Architecture by integrating the
              agency's IRM plans, strategic and performance plans prepared
              pursuant to the Government Performance and Results Act of 1993,
              financial management plans prepared pursuant to the Chief
              Financial Officer Act of 1990 (31 U.S.C. 902a5), acquisition under
              the Federal Acquisition Streamlining Act of 1994, and the agency's
              budget formulation and execution processes. The capital planning
              and investment control process includes all stages of capital
              programming, including planning, budgeting, procurement,
              management, and assessment.”

   •   For recommendation 4: a copy of the new or updated Peace Corps Manual section
       to include the information technology governance process. We also request an
       estimated completion date for the new or updated Peace Corps Manual section.
APPENDIX E

      The chief information officer stated that the governance process was an internal
      Office of the Chief Information Officer process and did not need to be stated in a
      Manual section. We strongly disagree. The governance process is an agency-wide
      policy that all offices must comply with to ensure efficient information technology
      decisions and investments. The governance process is required by the Clinger
      Cohen Act of 1996 and Office of Management Budget Circular A-130. These
      regulations require the Director to design and implement a process for maximizing
      the value and assessing and managing the risks of the information technology
      acquisitions of the executive agency. Formalizing the governance process in a
      Peace Corps Manual section will help to inform offices of the required procedures
      and provide a clear understanding of the responsibilities and requirements. We
      believe this will help eliminate some of the management concerns expressed
      during this audit about unclear responsibilities for project ownership and
      documentation, offices bypassing the governance process; and a lack of
      transparency in the information technology decision making process.

  •   For recommendations 5: documentation stating the estimated completion date for
      the updated system development lifecycle handbook and a copy of the finalized
      version of the handbook upon issuance.

  •   For recommendation 6: documentation defining the criteria used to determine
      which information technology projects require exhibit 300s and a copy of the
      current exhibit 300 for the Volunteer Delivery and Support System.

      We could not determine which systems required an exhibit 300 because the Office
      of the Chief Information Officer did not provide us with the criteria used when
      determining which information technology projects require an exhibit 300.

      The chief information officer stated that the only current project requiring an
      exhibit 300 is the Volunteer Delivery and Support System and that associated
      documentation will be developed as the project progresses. On the contrary,
      during our audit the Office of the Chief Information Officer provided an outdated
      exhibit 300 for the agency’s financial management system.

      The Office of Management and Budget requires agencies to prepare an exhibit 300
      for all major investments, including a system requiring special management
      attention because of its importance to the mission or function of the agency, has
      significant program or policy implications, has high executive visibility, or has
      high costs. Exhibit 300 is more than just a requirement, it is designed to be used as
      a one-stop document for many management issues such as business cases for
      investments, information technology security reporting, Clinger Cohen Act
      implementation, E-Gov Act implementation, Government Paperwork Elimination
      Act implementation, agency’s modernization efforts, and overall project
      management.
APPENDIX E
  •   For recommendations 7, 8, 9, and 11: a copy of the finalized list of criteria for use
      by the Investment Resource Board in approving and prioritizing information
      technology projects and documentation of the processes the Board will use when
      monitoring the development and implementation of projects and evaluating the
      completed project. Further, we request an estimated completion date for these
      criteria and process documentation.

      The recommendations were addressed to the Investment Resource Board, chaired
      by the chief of operations and the chief architect. However, only the Office of the
      Chief Information Officer provided comments to these recommendations.

      In recommendation 7, the Office of the Chief Information Officer stated that senior
      management of the agency should determine the criteria needed when
      approving and prioritizing information technology projects. The Investment
      Resource Board is the executive level decision maker that approves and prioritizes
      information technology projects. Therefore, the members of the Investment
      Resource Board must agree to and document a standard list of required
      information, the method for retaining these documents, and how the
      documentation will be used to determine resource allocation, monitor information
      technology projects progress, and evaluate projects after implementation.

      The guidance for information technology investments is necessary to ensure Peace
      Corps complies with the Clinger Cohen Act of 1996 that requires executive
      agencies to develop a capital planning and investment control process that includes
      the selection of information technology projects; integration with budget, financial,
      and program management decisions; criteria used when approving, comparing, and
      prioritizing information technology projects; quantifiable measurements of benefits
      and risks; and timely information regarding the progress of information technology
      projects.

  •   For recommendation 10: documentation showing the development of a costing
      technique to track information technology costs and compare results to budgets
      throughout the lifecycle.

      Although the chief information officer concurred with the recommendation to
      develop a costing technique, he stated that there are no chargeback mechanisms in
      place and cost evaluation is done at the beginning of the project.

      Cost evaluation at the beginning of the project can only provided budget
      information and estimates. It is essential that Peace Corps have a method to track
      costs throughout system development to ensure projects are on schedule, avoid
      cost overruns, and make informed decisions about resource allocation. Further,
      costing techniques are necessary to comply with the Federal Acquisition
      Streamlining Act of 1994 that requires agencies to establish cost, schedule, and
      measurable performance goals for all major acquisition programs, and achieve on
APPENDIX E
      average 90% of those goals. The Office of Management and Budget Circular A-
      130 states that agencies must:

         Institute performance measures and management processes that monitor
         actual performance compared to expected results. Agencies must use a
         performance based management system that provides timely
         information regarding the progress of an information technology
         investment. The system must also measure progress towards milestones
         in an independently verifiable basis, in terms of cost, capability of the
         investment to meet specified requirements, timeliness, and quality…

      We recognize that a standard costing technique may not be cost beneficial for all
      agency information technology projects. However, the monitoring process
      required by the Information Resource Board and the system development life cycle
      handbook should determine what cost information is required for the various types
      and size of information technology projects.

  •   For recommendations 12: documentation stating the estimated completion date for
      the guidance describing the roles and responsibilities of project sponsors and
      managers and a final version of the guidance upon issuance. We also request a
      copy of the Enterprise Architecture team’s plan for addressing this
      recommendation.

  •   For recommendation 13: documentation stating the estimated date of when the
      Project Management Office will be fully staffed. Further, we request that in the
      response to recommendation 4 the chief information officer include the
      responsibilities of the Project Management Office in the updated or new Peace
      Corps Manual section.

      The chief information officer stated progress will be made by hiring a new Project
      Management Office staff and defining the project roles and responsibilities. On
      August 17, 2009, the chief information officer did not extend the tour of the
      previous Project Management Office staff tasked with ensuring compliance with
      standard operation procedures. The previous staff commented on lack of clearly
      defined responsibilities and lack of authority for the Project Management Office to
      ensure project sponsors and managers provided the required information timely.

      Our recommendations to formalize procedures in a Peace Corps Manual section,
      clarify project sponsors’ and managers’ roles, and use the collaboration tool to
      assist users in preparing and maintaining documentation will help correct these
      deficiencies. However, without sufficient Project

      Management Office staff the Office of the Chief Information Officer will not have
      the resources to overseas the process and ensure offices comply.
APPENDIX E
  •   For recommendation 14: copy of the templates and guidance for IT project
      documentation.

      The chief information officer non-concurred with our recommendation to design
      the new collaboration tool to better identify the required documents, where the
      documentation is located within the folders, and who is responsible for the
      document. The chief information officer stated that this office provides templates
      and guidance for project documentation.

      Our audit identified weaknesses in the document retention practices of the Office
      of the Chief Information Officer that the collaboration tool was designed to
      correct. Although the collaboration tool could be modified to provide a folder
      structure that better aligned with the system development life cycle handbook
      requirements, we recognized that an enforced guidance for project documentation
      and templates could also ensure documents are properly prepared and maintained.

  •   For recommendation 15: documentation stating the estimated completion date for
      the Office of the Chief Financial Officer’s guidance and a copy of the guidance
      once final.

      The Office of the Chief Financial Officer agreed with the need to clarify and define
      the Office of the Chief Information Officer’s budgetary accounts and proposed to
      issue coordinated guidance, but stated that there does not seem to by the need for
      senior agency management level conversation beyond what would normally be
      required. Our recommendation was directed to the chief financial officer and the
      coordinated guidance will satisfy the intent of this recommendation if it clearly
      defines the budgetary accounts and their uses.

  •   For recommendation 16: we will be able to close this recommendation when
      recommendation 15 is complete and the chief information officer provides us with
      procedures for ensuring expenses are assigned to the appropriate budgetary
      accounts in accordance with the Office of the Chief Financial Officer coordinated
      guidance.

      The chief information officer concurred with the recommendation for procedures
      to ensure obligations are assigned to the proper budgetary account and stated that
      this has already begun in conjunction with the FY 2010 budget process. However,
      in recommendation 15 the Office of the Chief Financial Officer agreed that Office
      of the Chief Financial Officer budgetary accounts required clarification. Until
      these budgetary accounts are clearly defined, the Office of the Chief Information
      Officer will be unable to ensure obligations are properly assigned.

  •   For recommendations 17 and 18: documentation stating the estimated completion
      date for the development of standard operating procedures for Requests for
      Agency Resources and a copy of these procedures once final.
APPENDIX E
      The Office of the Chief Financial Officer commented that the Request for Agency
      Resources for other departments should be reviewed and that guidance could be
      expanded to include additional issues. We encourage the Office of the Chief
      Financial Officer to take the necessary action to improve the agency’s Request for
      Agency Resources process, but we refrain from making additional
      recommendations because of the scope of our audit was limited to the Office of the
      Chief Information Officer.

  •   For recommendation 19: a copy of the COTR certification policy and the
      procedures of the Contract Surveillance Review Program. We also request the
      completion date for when the COTR certification policy will be fully implemented.

  •   For recommendation 20: documentation showing that the COTR and contracting
      officer have determined whether the contractor fulfilled the requirements of the
      $46,368 contract amendment for the implementation of E-vault data management
      software and a copy of Office of the Chief Information Officer’s reconciliation of
      invoices to products.

      The chief acquisition officer non-concurred because he was not aware of an issue
      related to certain undelivered contract services that may improve the
      government’s position in negotiating contract termination costs. Our audit
      identified improprieties including invoices not reconciled to deliverables; over-
      expended contract line items; potential duplicative services; and services paid for
      but not fully received. Further, we determined that reconciliation of line items to
      deliverables in early 2008 did not correct the discrepancies identified during the
      audit. Specifically, Peace Corps agreed to the contractor’s proposal and modified
      the original contract to include services associated with the installation and testing
      of E-vault data management software. However, we found that although the
      contractor invoiced, and was subsequently paid for 100% of these services, the E-
      vault software had not been installed. As a result, we concluded that Peace Corps
      purchased goods and services that were not required; approved an invoice that
      was not accurate; and reimbursed the contractor for services that were only
      partially received. The COTR and contracting officer must determine to what
      extent the contractor has failed to perform all of the requirements associated with
      the E-vault project and its effect on the contract close out process, including
      determination of reasonable termination costs.

  •   For recommendation 21: a copy of the training records for all Office of the Chief
      Information Officer contracting officer’s technical representatives.

  •   For recommendation 22: a copy of documentation showing that the positions
      identified in our report were filled or that the positions were eliminated and the
      full-time equivalents were released.

      The chief information officer did not concur and stated, “The findings of the IG
      were consistent with practices in all areas of the Agency and heartily endorsed by
APPENDIX E
       the OCFO.” Although we recognize that a level of salary lapse is unavoidable, our
       audit identified essential positions that remained vacant for excessive amounts of
       time. If the position is essential, then the Office of Chief Information Officer
       risked not fulfilling mission requirements. However, the Office of the Chief
       Information Officer operated for more than a year and a half without two of the
       vacant positions. This indicates that these positions were not essential and that the
       salary lapse created by these vacancies could have been properly budgeted to meet
       more urgent needs. Further, in the chief information officer’s comments to our
       recommendations he states that efforts were constrained by a lack of resources. By
       properly aligning personnel and budgeting salaries, the Office of the Chief
       Information Officer can improve its use of resources.

   •   For recommendation 23: a copy of the Deputy Director’s review of the current
       structure of Peace Corps information technology personnel and their reporting
       chain.

In their response, management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
APPENDIX F

         AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
Mr. Bradley Grubb performed the audit and Mr. Gerry Montoya supervised.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help
us strengthen our product, please email Gerald P. Montoya, Assistant
Inspector General for Audits, at gmontoya@peacecorps.gov, or call him at
202.692.2907.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
